APPENDIX A
Eleventh Circuit Amended Order and Denial of Rehearing Petition.

Case 3:17-cv-00348-HES-MCR Document 158 Filed 02/23/21 Page 1 of 20 PagelD 8562
USCA11 Case: 19-11224 Date Filed: 02/23/2021
Page: 1 of 18

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-11224
D.C. Docket No. 3:17-cv-00348-HES-MCR
BENJAMIN MICHAEL DUBAY,
Plaintiff - Appellant,
WILLIAM B. DUBAY, LLC,
Plaintiff,
versus
STEPHEN KING,
MEDIA RIGHTS CAPITAL,
IMAGINE ENTERTAINMENT,
SONY PICTURES ENTERTAINMENT,
MARVEL ENTERTAINMENT, et al.,
Defendants - Appellees.

Appeal from the United States District Court
for the Middle District of Florida
(February 23, 2021)

Case 3:17-cv-00348-HES-MCR Document 158 Filed 02/23/21 Page 2 of 20 Page!D 8563
USCA11 Case: 19-11224 Date Filed: 02/23/2021
Page: 2 of 18

Before NEWSOM and BRANCH, Circuit Judges.*
BRANCH, Circuit Judge:
In this copyright infringement action, Benjamin DuBay appeals the district
court’s grant of summary judgment to Stephen King, Media Rights Capital,
Imagine Entertainment, Sony Pictures Entertainment, Marvel Entertainment, and
Simon & Schuster (collectively, “King”). DuBay owns the copyright for a comic
book series called The Rook, which recounted the adventures of Restin Dane. King
is the author of The Dark Tower novel series, which features the character Roland
Deschain as its protagonist. DuBay sued King for copyright infringement, alleging
that Roland Deschain is a copy of Restin Dane. DuBay also sued the other
defendants for contributory and vicarious copyright infringement for their
respective roles in publishing King’s novel series and adapting the book series into
graphic novels and a motion picture. After careful consideration and with the
benefit of oral argument, we affirm.

I. BACKGROUND
Because the parties are familiar with the facts of this case, we recount only
those facts that are necessary to the disposition of this appeal.

* After Judge Martin heard this case at oral argument, facts arose that required her
recusal. She did not, therefore, participate in this decision, which is rendered by a quorum. 28
U.S.C. § 46(d).
2

Case 3:17-cv-00348-HES-MCR Document 158 Filed 02/23/21 Page 3 of 20 PagelD 8564
USCA11 Case: 19-11224 Date Filed: 02/23/2021
Page: 3 of 18

William DuBay and two other individuals created the comic book character
Restin Dane, a.k.a. “The Rook,” in the 1970s. On January 19, 1977, Dane first
appeared in a Warren Publications horror/fantasy comic magazine entitled Eerie
(vol. 82). In 1979, Warren Publications published a comic book series dedicated to
The Rook. The Rook comic book series sold more than 5 million copies from 1977
to 1983.
As the evidence presented in the underlying proceeding established, Restin
Dane is a wealthy scientist/inventor who lives in Arizona in a house shaped like a
rook chess piece, which is known both as “Rook Castle” and “Rook Manor.” Dane
is a time traveler. He invents his own time machines (two resemble rook chess
pieces) and “will go anywhere—any time—in search of adventure!” During his
time-traveling adventures, Dane battles a variety of villains. Dane shares
numerous attributes with other traditional heroes from comic books. He is
handsome, masculine, courageous, and honorable. Dane is selfless and can always
be counted on to “do the right thing.” Dane does not engage in much
introspection; his character arc remains constant throughout The Rook series. In
short, Dane is a traditional comic book hero.
Stephen King is one of the best-known authors of the last half-century.
Although King has written more than 50 works of fiction, this case involves what
he describes as his “magnum opus”—The Dark Tower series. The Dark Tower is
3

Case 3:17-cv-00348-HES-MCR Document 158 Filed 02/23/21 Page 4 of 20 PagelD 8565
USCA11 Case: 19-11224 Date Filed: 02/23/2021
Page: 4 of 18

comprised of eight novels and a novella, published between 1982 and 2012. In or
around April 1970, King began writing the first novel in the series, The
Gunslinger. First published in book form in 1982, The Gunslinger introduced
Roland Deschain, the protagonist of The Dark Tower series. Between 2007 and
2017, Marvel published licensed graphic novels that were based on The Dark
Tower novels. And in 2017, Media Rights Capital, Imagine Entertainment, and
Sony Pictures Entertainment produced a motion picture adaptation of The Dark
Tower series by the same name.
Throughout The Dark Tower series, Roland Deschain pursues an elusive
structure called the Dark Tower—the linchpin of the space/time continuum—and a
sorcerer called The Man in Black who serves The Crimson King.
Deschain is a complex character. He is courageous and skilled with a gun,
yet he lacks the idealism and morality of the traditional hero. Deschain is a loner
who does not value the lives of others and is, thus, willing to sacrifice those who
get in his way. Sometimes he appears heartless and uncompassionate; other times
he displays an emotional and romantic side that allows him to engage in
introspection and—ultimately—change his behavior. Deschain’s character arc
throughout The Dark Tower series is marked by his search for self-knowledge and
redemption. Thus, Deschain’s journey is not only external—chasing the Dark
Tower and its sorcerer—but also internal. Deschain’s personal journey is difficult.
4

Case 3:17-cv-00348-HES-MCR Document 158 Filed 02/23/21 Page 5 of 20 PagelD 8566
USCA11 Case: 19-11224 Date Filed: 02/23/2021
Page: 5 of 18

He undergoes illness, aging, amputation, and terrible, heart-rending loss. Deschain
ultimately realizes that he cannot find redemption until he reflects on his life and
admits the evil he has done. In short, Deschain is best described as an anti-hero.
Approximately 35 years after the first publication of The Gunslinger,
Benjamin DuBay—the nephew of William DuBay1—sued King for copyright
infringement. DuBay brought one count of copyright infringement against all
defendants; one count of contributory copyright infringement against Media Rights
Capital and Imagine Entertainment; and one count of vicarious copyright
infringement against King, Sony Pictures Entertainment, Marvel Entertainment,
and Simon & Schuster. DuBay alleged that the similarities between Deschain and
Dane were so “shocking and extraordinary” that King must have copied DuBay’s
artistic expression.
During discovery, DuBay moved to compel the production of King’s private
journals from January to May 1977. King objected and argued that the journals
were irrelevant, such production would invade his privacy, and that the request for
the journals was overbroad. After conducting an in camera review of the relevant

1 William DuBay died in April 2010. Benjamin DuBay claims that he received an
assignment of William DuBay’s ownership in The Rook’s copyright. The district court
concluded that “the issue of ownership is far from clear.” So it assumed without deciding that
Benjamin DuBay owned a share in the relevant copyright. We also assume for purposes of this
appeal that Benjamin DuBay owns an interest in the copyright.
5

Case 3:17-cv-0034S~HES~MCR Document 158 Filed 02/23/21 Page 6 of 20 PagelD 8567
USCA11 Case: 19-11224 Date Filed: 02/23/2021
Page: 6 of 18

journal entries, a magistrate judge denied DuBay’s motion. DuBay did not file
objections to the magistrate judge’s ruling.
King eventually moved for summary judgment. He submitted a copy of the
first novel, The Gunslinger, The Dark Tower motion picture; and excerpts from
The Dark Tower graphic novels. Given the volume of the works at issue (totaling
approximately 4,200 pages), King supported his motion with an expert report
written by Michael Gale, which analyzed the issue of substantial similarity.2 King
also engaged Robin Furth to write character and plot summaries and analyze
quotations from the works at issue.3
In his opposition to the motion for summary judgment, DuBay did not enter
any additional works into the record. DuBay argued that King had access to The
Rook and that the characters were substantially similar because they shared similar
literary and visual elements. DuBay also argued that the “overall look and feel” of
the characters was substantially similar.

2 Gale is an accomplished writer (best known for co-authoring the 1985 motion picture
Back to the Future) and has read extensive collections of science fiction in comics, including the
works at issue in this case. Gale has also provided expert testimony in numerous other copyright
cases.
3 Furth was a research assistant to King and wrote Stephen King’s The Dark Tower: The
Complete Concordance as a writer’s tool for King’s use. Furth has also published more than 50
articles about The Dark Tower series, co-authored the Marvel graphic novels based on The Dark
Tower series, appeared in documentaries and interviews related to the series, and served as a
consultant for the 2017 motion picture and a forthcoming television franchise.
6

Case 3:17-cv-0034S-HES-MCR Document 158 Filed 02/23/21 Page 7 of 20 PagelD 8568
USCA11 Case: 19-11224 Date Filed: 02/23/2021
Page: 7 of 18

The district court concluded that the characters were not substantially similar
and granted summary judgment to all defendants.
DuBay then moved for relief from judgment under Fed. R. Civ. P. 59(e),
60(b)(1), and 60(b)(3), urging the court to reconsider its decision for various
reasons. The district court denied those motions. DuBay timely appealed.
II. DISCUSSION
DuBay raises two issues on appeal. First, DuBay contends that the district
court abused its discretion by failing to exclude Furth’s character and plot
summaries and Gale’s expert report. Second, he contends that the district court
erred when it found that the characters were not substantially similar.4 We address
each issue in turn.
A. Expert Evidence5
First, DuBay contends that the district court abused its discretion by failing
to apply the Daubert standard to the evidence provided by Furth and Gale. See

4 Dubay also challenges the district court’s denial of his motion to compel production of
King’s journals. Dubay, however, abandoned this claim by failing to object below. See Fed. R.
Civ. P. 72(a) (providing that when a magistrate judge decides a “pretrial matter not dispositive of
a party’s claim or defense,” a “party may serve and file objections to the order within 14 days
after being served with a copy” of the decision, and, “[a] party may not assign as error a defect in
the order not timely objected to.”). Because DuBay failed to object to the magistrate’s denial of
his motion to compel within 14 days, he “waived his right to appeal [that] order[] in this Court.”
Smith v. Sch. Bd. of Orange Cty., 487 F.3d 1361, 1365 (11th Cir. 2007). Accordingly, we will
not consider DuBay’s argument.
5 We review decisions regarding the admissibility and reliability of expert testimony for
abuse of discretion, and we will “not reverse an evidentiary decision of a district court unless the
7

Case 3:17-cv-00348-HES-MCR Document 158 Filed 02/23/21 Page 8 of 20 PageSD 8569
USCA11 Case: 19-11224 Date Filed: 02/23/2021
Page: 8 of 18

Daubertv. MerrellDowPharm., Inc., 509 U.S. 579 (1993). DuBay argues that
Furth’s character and plot summaries were inadmissible because those summaries
were unreliable and irrelevant. According to DuBay, Furth’s summaries were
unreliable because she had a financial interest in the outcome of the case, and she
misrepresented The Dark Tower series by claiming that Deschain does not travel
through time. Furthermore, he contends that the summaries were irrelevant
because they covered elements that were not at issue and, therefore, did not assist
the district court. DuBay also argues that Gale’s expert report was unreliable
because Gale conceded that if Deschain were a traditional time traveler, the
premise of his expert report would be completely undermined.
Expert testimony is admissible if: (1) “the expert’s scientific, technical, or
other specialized knowledge will help the trier of fact to understand the evidence or
to determine a fact in issue;” (2) “the testimony is based on sufficient facts or
data;” (3) “the testimony is the product of reliable principles and methods;” and
(4) “the expert has reliably applied the principles and methods to the facts of the
case.” Fed. R. Evid. 702; see also Crawford v. ITWFood Equip. Grp., LLC, 977
F.3d 1331, 1338 (11th Cir. 2020) (explaining that Daubert requires courts to assess
reliability by considering “(1) whether the expert’s testimony can be and has been

ruling is manifestly erroneous[.]” United States v. Frazier, 387 F.3d 1244, 1258 (11th Cir. 2004)
(en banc) (quotation omitted).
__
8

Case 3:17-cv-00348-HES-MCR Document 158 Filed 02/23/21 Page 9 of 20 PagelD 8570
USCA11 Case: 19-11224 Date Filed: 02/23/2021
Page: 9 of 18

tested; (2) whether the theory has been subjected to peer review and publication;
(3) the known or potential rate of error of the particular scientific technique; and
(4) whether the technique is generally accepted in the scientific community”
(quotation omitted)).
The Federal Rules of Evidence separately permit a party to introduce “a
summary, chart, or calculation to prove the content of voluminous writings,
recordings, or photographs that cannot be conveniently examined in court.” Fed.
R. Evid. 1006; see also United States v. Francis, 131 F.3d 1452, 1457 (11th Cir.
1997) (“Rule 1006 allows the district court to admit... summaries as evidence
[when], in the court’s discretion, it would be inconvenient or unnecessarily timeconsuming to [review all of the writings, recordings, or photographs].”).
In its summary judgment decision, the district court addressed Dubay’s
objections to the evidence submitted by Furth and Gale. As to Furth’s summaries,
the district court noted that the summaries were admissible under Rule 1006 given
the sheer volume of the works at issue. Furthermore, the district court did not limit
its review to the summaries, stating that it would “compare the characters for the
purpose of the substantial similarity analysis using Furth’s summaries[;] Eerie,
volumes 82-85, 87-88 in their entirety[;] and the other materials lodged with the
court.” As to Gale’s expert report, the district court emphasized that it “[was] not
left to rely on expert opinion alone to determine whether the protected expressions
9

Case 3:17-cv-00348-HES-MCR Document 158 Filed 02/23/21 Page 10 of 20 PagelD 8571
USCA11 Case: 19-11224 Date Filed: 02/23/2021
Page: 10 of 18

of the work [were] substantially similar” because “[t]o the extent the works at issue
have been lodged with the [district court], the works themselves have been
scrutinized.”
As an initial matter, DuBay misapprehends the purposes of Daubert and
Rule 1006. Daubert requires the district court “to act as a gatekeeper to insure that
speculative and unreliable [expert] opinions do not reach the jury.” McClain v.
Metabolife Int’l, Inc., 401 F.3d 1233, 1237 (11th Cir. 2005). Similarly, “Rule 1006
allows the district court to admit... summaries as evidence [when], in the court’s
discretion, it would be inconvenient or unnecessarily time-consuming to [present
all the evidence to] the jury.” United States v. Francis, 131 F.3d 1452, 1457 (11th
Cir. 1997). The purpose of both rules is to assist the ultimate fact finder. Here,
however, the district court personally examined the works at issue that the parties
submitted and determined that the case could not proceed to a jury because King
was entitled to summary judgment. And because the case would not reach trial,
there was no need for the district court to exercise its gatekeeping function.
In any event, DuBay’s arguments are meritless. DuBay argues that Furth’s
summaries were unreliable and irrelevant and thus inadmissible under Rule 702
and Daubert. But Furth’s summaries were independently admissible under Rule
1006. See WWP, Inc. v. Wounded Warriors Family Support, Inc., 628 F.3d 1032,
1039-40 & n.7 (8th Cir. 2011) (explaining.that evidence was admissible either as
10

Case 3:17-cv-00348-HES-MCR Document 158 Filed 02/23/21 Page 11 of 20 PagelD 8572
USCA11 Case: 19-11224 Date Filed: 02/23/2021
Page: 11 of 18

expert testimony under Rule 702 or as summary testimony to prove content under
Rule 1006). DuBay does not dispute that the works at issue are voluminous or that
it would have been inconvenient for the district court to review all the relevant
material. Thus, DuBay does not argue that Rule 1006 was inapplicable. To the
extent DuBay contends that Furth’s summaries were affected by bias, the district
court correctly observed that Furth’s potential bias goes to the weight the district
court should give the summaries—not whether they are admissible. See, e.g.,
Adams v. Lab. Corp. ofAm., 760 F.3d 1322, 1334 (11th Cir. 2014) (explaining that
the “risk of bias ... goes to the weight of... testimony, not its admissibility”).
And because the district court independently examined the works the parties
submitted, it was well positioned to determine what weight to give to Furth’s
summaries. In sum, DuBay has not shown that the district court abused its
discretion by admitting Furth’s summaries under Rule 1006.
DuBay’s attempt to undermine Gale’s expert report is similarly
unpersuasive. DuBay maintains that Gale’s expert report was not admissible under
Daubert and Rule 702 because Gale conceded the unreliability of his own report.
However, Gale made no such concession. DuBay’s counsel asked Gale a
hypothetical question: “If Roland Deschain is a time traveler in the traditional
sense, then wouldn’t that undermine the entire basis of your opinion?” Gale never
entertained the hypothetical and repeatedly insisted that Deschain was “not a
11

Case 3:17-cv-00348-HES-MCR Document 158 Filed 02/23/21 Page 12 of 20 PagelD 8573
USCA11 Case: 19-11224 Date Filed: 02/23/2021
Page: 12 of 18

traditional time traveler.” Thus, DuBay has not shown that the district court
abused its discretion by failing to exclude Gale’s expert report.6
B. Substantial Similarity7
Next, DuBay argues that the district court erred when it granted summary
judgment to King because a reasonable jury could conclude that the characters of
Dane and Deschain are substantially similar. As DuBay sees it, the characters are
substantially similar because they (1) have similar names, (2) interact with towers
that are integral to time travel, (3) have bird companions, (4) are marked by
knightly characteristics, (5) travel back in time to save a young boy who becomes a
gunslinger, (6) wear Western garb, (7) survive a fictionalized Alamo, and (8) use

6 DuBay further challenges the district court’s decision to consider the expert report and
the summaries by arguing that the district court abused its discretion by not affording him relief
under Federal Rules of Civil Procedure 59 and 60. These motions purported to identify further
evidence that Furth’s summaries were biased and unreliable and that Gale lacked the requisite
expertise. On appeal, DuBay asserts—in two sentences—that the district court abused its
discretion because it did not apply the Daubert standards for relevance or reliability to Furth’s
summaries. Apart from this conclusory assertion, DuBay fails to “advanc[e] any arguments or
cit[e] any authorities to establish” that the district court abused its discretion when it denied his
post-trial motions. Sapuppo v. Allstate Floridian Ins. Co., 739 F.3d 678, 681 (11th Cir. 2014).
“[SJimply stating that an issue exists, without further argument or discussion, constitutes
abandonment of that issue and precludes our considering the issue on appeal.” Id. (quotation
omitted). Accordingly, we will not consider DuBay’s argument.
7 We review “a district court’s grant of summary judgment de novo, applying the same
legal standards used by the district court.” Galvez v. Bruce, 552 F.3d 1238, 1241 (11th Cir.
2008). “Summary judgment is appropriate [when] there is no genuine issue as to any material
fact and the moving party is entitled to a judgment as a matter of law.” Wooden v. Bd. of
Regents ofUniv. Sys. of Georgia, 247 F.3d 1262, 1271 (11th Cir. 2001) (quotation omitted). We
“draw all inferences and review all evidence in the light most favorable to the non-moving
party.” Gorss Motels, Inc. v. Safemark Sys., LP, 931 F.3d 1094, 1099 (11th Cir. 2019) (quotation
omitted and alterations adopted).
12

Case 3:17-cv-00348-HES-MCR Document 158 Filed 02/23/21 Page 13 of 20 PagelD 8574
USCA11 Case: 19-11224 Date Filed: 02/23/2021
Page: 13 of 18

knives. He also contends that Dane was the first character that combined these
elements to create a distinctive character that King later copied.
The Copyright Act protects “original works of authorship fixed in any
tangible medium of expression, now known or later developed, from which they
can be perceived, reproduced, or otherwise communicated, either directly or with
the aid of a machine or device.” 17 U.S.C. § 102(a). “Because the Copyright Act
protects ‘original works of authorship,’ the ‘sine qua non of copyright is
originality.’” Beal v. Paramount Pictures Corp., 20 F.3d 454, 459 (11th Cir. 1994)
(citation omitted) (first quoting 17 U.S.C. § 102(a) and then quoting Feist Publ’ns,
Inc. v. Rural Tel Serv. Co., 499 U.S. 340, 345 (1991)). Thus, non-original ideas
and material, such as scenes a faire, are not copyrightable. Id. Scenes a faire are
“sequences of events which necessarily follow from a common theme, or incidents,
characters, or settings that are indispensable or standard in the treatment of a given
topic.” Peter Letterese & Assocs., Inc. v. World Inst. OfScientology Enters., 533
F.3d 1287, 1302 (11th Cir. 2008) (citation and quotation marks omitted).
To establish a copyright infringement claim, a plaintiff must show two
elements: “(1) ownership of a valid copyright, and (2) copying of constituent
elements of the work that are original.” Feist Publ’ns, 499 U.S. at 361. When, as
is the case here, there is no “direct evidence” of copyright infringement* a plaintiff
must prove that: (1) “the defendant had access to the plaintiffs work[,]” and
13

Case 3:17-cv-00348-HES-MCR Document 158 Filed 02/23/21 Page 14 of 20 PagelD 8575
USCA11 Case: 19-11224 Date Filed: 02/23/2021 Page: 14 of 18

(2) “the defendant’s work is substantially similar to the plaintiffs protected
expression.” Beal, 20 F.3d at 459.
Like the district court, we assume that DuBay has proved that King had
access to The Rook, and we will focus our analysis on substantial similarity. 8
Substantial similarity exists when “an average lay observer would recognize the
alleged copy as having been appropriated from the copyrighted work.” Oravec v.
Sunny Isles Luxury Ventures, L.C., 527 F.3d 1218, 1224 (11th Cir. 2008)
(quotation omitted). But because a work may contain uncopyrightable elements,
our task is to “determine[] both whether the similarities between the works are
substantial from the point of view of the lay observer and whether those
similarities involve copyrightable material.” Id. (quotation omitted) (alteration
adopted).
We begin by narrowing down the alleged similarities to elements that are
protected by copyright. First, we agree with the district court that character names
do not merit copyright protection. CMM Cable Rep, Inc. v. Ocean Coast Prop.,
Inc., 97 F.3d 1504, 1519 (1st Cir. 1996) (explaining that mere words and short

8 The district court concluded that it was unnecessary to decide the issue of access given
the lack of substantial similarity between the characters. On appeal, the parties disagree about
whether the evidence establishes that King had access to The Rook. We note that if a plaintiff
cannot establish access, that plaintiff must meet a higher standard of “demonstrating that the
works are so strikingly similar as to preclude the possibility of independent creation.” Herzog v.
Castle RockEntm’t, 193 F.3d 1241, 1249 (11th Cir. 1999) (emphasis added). On this record, we
decline to decide that issue in the first instance. Therefore, we will assume that DuBay has
demonstrated access and analyze whether the characters are substantially similar.
14

Case 3:17-cv-00348-HES-MCR Document 158 Filed 02/23/21 Page 15 of 20 PagelD 8576
USCA11 Case: 19-11224 Date Filed: 02/23/2021
Page: 15 of 18

phrases, even if they occur in a copyrighted work, do not themselves enjoy
protection against copying); cf. 37 C.F.R. § 202.1(a) (excepting from copyright
protection “[wjords and short phrases such as names, titles, and slogans”).
Second, we agree with the district court that there are certain similarities at
issue in this appeal that lack originality. Even assuming that the characters share
some similarities concerning their knightly heritage, travel to different times and
parallel worlds, Western attire, fictionalized Alamo histories, and knife-wielding,
these similarities are scenes a faire that are too general to merit copyright
protection. See Peter Letterese, 533 F.3d at 1302; Zalewski v. Cicero Builder Dev.,
Inc., 754 F.3d 95, 102 (2d Cir. 2014) (“[T]he doctrine of ‘scenes-d-faire’ teaches
that elements of a work that are ‘indispensable, or at least standard, in the
treatment of a given topic’—like cowboys, bank robbers, and shootouts in stories
of the American West—get no protection.” (quotation omitted)).
Finally, we turn to what remains: the alleged similarities between the
characters’ relationship to towers and tower imagery, the presence of bird
companions, and the fact that both characters save a young boy from a different
time. Although these elements are similar in the abstract, they are not substantially
similar because the elements are portrayed in different ways. To begin, the towers
serve very different functions for each character. Dane resides in a house that
resembles a rook chess piece and builds time machines with a similar appearance.
15

Case 3:17-cv-00348-HES-MCR Document 158 Filed 02/23/21 Page 16 of 20 PagelD 8577
USCA11 Case: 19-11224 Date Filed: 02/23/2021
Page: 16 of 18

By contrast, the Dark Tower is neither Deschain’s home nor a time machine.
Deschain is on a quest to find the Dark Tower, which is the nexus that ties different
worlds and dimensions together.
Next, the characters interact with bird companions and imagery in different
ways. Dane is associated with bird symbolism because he wears a belt buckle with
the image of a rook bird and, on at least one occasion, puts on a pair of rook wings
and flies into battle alongside a rook bird. Deschain, on the other hand, encounters
a talking crow and briefly allies with a fighting hawk before sacrificing the hawk
to serve his own ends. Unlike Dane, who only associates with bird allies, Deschain
symbolically becomes the hawk upon its demise.
Finally, the characters’ interactions with young male companions are
dramatically different. Dane travels back in time to the Battle of the Alamo and,
by chance, saves the life of a young boy who turns out to be Dane’s great-greatgrandfather. Deschain also saves and bonds with a young boy, but Deschain later
betrays and sacrifices the boy for the sake of his quest. Even if these elements bear
some similarity, the portrayals of these elements are distinguishable. Given these
distinctive presentations, “no reasonable jury upon proper instruction would find
that the two works are substantially similar.” Beal, 20 F.3d at 459.
In addition to asking us to analyze substantial similarity by comparing each
element side by side, DuBay urges us to consider whether the characters’
16

Case 3:17-cv-00348-HES-MCR Document 158 Filed 02/23/21 Page 17 of 20 PagelD 8578
USCA11 Case: 19-11224 Date Filed: 02/23/2021
Page: 17 of 18

combinations of those elements are substantially similar. DuBay submits that
Dane is a unique expression of those combined elements and that Deschain is a
copy of that expression.
We have recognized the pitfalls of scrutinizing each alleged similarity in
isolation. See Beal, 20 F.3d at 460 (“The district court correctly noted that... lists
[of similarities] are inherently subjective and unreliable, particularly where the list
contains random similarities. Many such similarities could be found in very
dissimilar works.” (citation and quotation marks omitted)); Leigh v. Warner Bros.,
212 F.3d 1210, 1215 (11th Cir. 2000) (“This circuit has noted ... that lists of
similarities between works are inherently subjective and unreliable.”). But by
asking us to take a broader view of the characters, DuBay hurts rather than helps
his case because this more holistic analysis further highlights the distinctiveness of
each character.
Dane possesses many attributes of a traditional comic book hero. He is a
courageous gunslinger and an honorable man. He always does the “right thing.”
He travels through time and fights a variety of villains. And Dane’s character arc
remains constant throughout The Rook series. Deschain, however, is far more
complex. He is courageous and skilled with a gun yet lacks the idealism and
morality integrity of a traditional hero. He uses and sacrifices others out of selfinterest. And Deschain is on an external quest for the Dark Tower and The Man in
17

Case 3:17-cv-00348-HES-MCR Document 158 Filed 02/23/21 Page 18 of 20 PagelD 8579
USCA11 Case: 19-11224 Date Filed: 02/23/2021
Page: 18 of 18

Black and an internal quest for self-knowledge and redemption. Deschain is best
described as a troubled anti-hero. As a result, these characters are surrounded by
different stories and contexts, thereby rendering any similarities superficial.
For these reasons, and those explained in the district court’s thorough
opinion, “no reasonable jury upon proper instruction would find that the two works
are substantially similar.” Beal, 20 F.3d at 459. Accordingly, the district court did
not err by granting King’s motion for summary judgment.9
III. CONCLUSION
For the reasons explained, we affirm the district court in full.
AFFIRMED.

9 Because there was no direct copyright infringement, DuBay’s contributory and
vicarious copyright infringement claims fail. See Peter Letterese &Assocs., Inc. v. World Inst.
Of Scientology Enter., 533 F.3d 1287, 1298 n.l 1 (11th Cir. 2008) (explaining that there “can be
no contributory infringement without a direct infringement” (quotation omitted)); Leonard v.
Stemtech Int’llnc., 834 F.3d 376, 386 (3d Cir. 2016) (“[T]o prove a claim of contributory or
vicarious infringement, a plaintiff must first show direct infringement by a third party.”).
18

Case 3:17-cv-00348-HES-MCR Document 158 Filed 02/23/21 Page 19 of 20 PagelD 8580
USCA11 Case: 19-11224 Date Filed: 02/23/2021
Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1 .uscouTts.gov

David J. Smith
Clerk of Court

February 23, 2021
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 19-11224-DD
Case Style: Benjamin Dubay v. Stephen King, et al
District Court Docket No: 3:17-cv-00348-HES-MCR
This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF") system, unless
exempted for good cause. Non-incarcerated pro se parties are permitted to use the ECF system by registering for an
account at www.pacer.gov. Information and training materials related to electronic filing, are available at
www.call.uscourts.gov. Enclosed is a copy of the court's decision filed today in this appeal. Judgment has this day been
entered pursuant to FRAP 36. The court's mandate will issue at a later date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for filing a petition for rehearing en
banc is governed by 11th Cir. R. 35-2. Except as otherwise provided hy FRAP 25(a) for inmate filings, a petition for rehearing
or for rehearing en banc is timely only if received in the clerk's office within the time specified in the rules. Costs are governed
by FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content of a motion for attorney's fees and an objection thereto is
governed by 11th Cir. R. 39-2 and 39-3.
Please note that a petition for rehearing en banc must include in the Certificate of Interested Persons a complete list of all
persons and entities listed on all certificates previously filed by any party in the appeal. See 11th Cir. R. 26.1-1. In addition, a
copy of the opinion sought to be reheard must be included in any petition for rehearing or petition for rehearing en banc. See
11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for time spent on the
appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme Court of a petition for writ of
certiorari (whichever is later) via the eVoucher system. Please contact the CJA Team at (404) 335-6167 or
cja_evoucher@cal 1 .uscourts.gov for questions regarding CJA vouchers or the eVoucher system.
Pursuant to Fed.RApp.P. 39, costs taxed against appellant.
Please use the most recent version of the Bill of Costs form available on the court's website at www.cal 1 .uscourts.gov.
For questions concerning the issuance of the decision of this court, please call the number referenced in the signature block
below. For all other questions, please call Bradlv Wallace Holland. DD at 404-335-6181.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Jeff R. Patch
Phone#: 404-335-6151
OPIN-1A Issuance of Opinion With Costs

Case 3:17-cv-00348-HES-MCR Document 158 Filed 02/23/21 Page 20 of 20 PagelD 8581
USCA11 Case: 19-11224 Date Filed: 02/23/2021
Page: 1 of 1

19-11224 Benjamin Michael DuBay v. Stephen King, et al.

ERRATA:
On page 11, the word “export” has been changed to “expert”.

USCA11 Case: 19-11224

DgfteEZQsd: 04/16/2021

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1 .iiscourts.gov

David J. Smith
Clerk of Court

April 16, 2021
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 19-11224-DD
Case Style: Benjamin Dubay v. Stephen King, et al
District Court Docket No: 3:17-cv-00348-HES-MCR
The enclosed order has been entered on petition(s) for rehearing.
See Rule 41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41-1 for
information regarding issuance and stay of mandate.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Bradly Wallace Holland, DD/lt
Phone#: 404-335-6181
REHG-1 Ltr Order Petition Rehearing

USCA11 Case: 19-11224

D(^©1F2^d: 04/16/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-11224-DD
BENJAMIN MICHAEL DUBAY,
Plaintiff - Appellant,
WILLIAM B. DUBAY, LLC,
Plaintiff,
versus
STEPHEN KING,
MEDIA RIGHTS CAPITAL,
IMAGINE ENTERTAINMENT,
SONY PICTURES ENTERTAINMENT,
MARVEL ENTERTAINMENT, et al.,
Defendants - Appellees.
Appeal from the United States District Court
for the Middle District of Florida
ON PETITIONS) FOR REHEARING AND PETITIONtSJ FOR REHEARING EN BANC
Before NEWSOM and BRANCH, Circuit Judges.*
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)
*After Judge Martin heard this case at oral argument, facts arose that required her
recusal. She did not, therefore, participate in this decision, which is rendered by a quorum. 28
U.S.C. § 46(d).

APPENDTXB
Eleventh Circuit Original Opinion.

USCA11 Case: 19-11224

Date Filed: 02/23/2021

Page: 1 of 18

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-11224
D.C. Docket No. 3:17-cv-00348-HES-MCR
BENJAMIN MICHAEL DUBAY,
Plaintiff - Appellant,
WILLIAM B. DUBAY, LLC,
Plaintiff,
versus
STEPHEN KING,
MEDIA RIGHTS CAPITAL,
IMAGINE ENTERTAINMENT,
SONY PICTURES ENTERTAINMENT,
MARVEL ENTERTAINMENT, et al.,
Defendants - Appellees.

Appeal from the United States District Court
for the Middle District of Florida
(February 23, 2021)

USCA11 Case: 19-11224

Date Filed: 02/23/2021

Page: 2 of 18

Before NEWSOM and BRANCH, Circuit Judges.*
BRANCH, Circuit Judge:
In this copyright infringement action, Benjamin DuBay appeals the district
court’s grant of summary judgment to Stephen King, Media Rights Capital,
Imagine Entertainment, Sony Pictures Entertainment, Marvel Entertainment, and
Simon & Schuster (collectively, “King”). DuBay owns the copyright for a comic
book series called The Rook, which recounted the adventures of Restin Dane. King
is the author of The Dark Tower novel series, which features the character Roland
Deschain as its protagonist. DuBay sued King for copyright infringement, alleging
that Roland Deschain is a copy of Restin Dane. DuBay also sued the other
defendants for contributory and vicarious copyright infringement for their
respective roles in publishing King’s novel series and adapting the book series into
graphic novels and a motion picture. After careful consideration and with the
benefit of oral argument, we affirm.

I. BACKGROUND
Because the parties are familiar with the facts of this case, we recount only
those facts that are necessary to the disposition of this appeal.

* After Judge Martin heard this case at oral argument, facts arose that required her
recusal. She did not, therefore, participate in this decision, which is rendered by a quorum. 28
U.S.C. § 46(d).
2

USCA11 Case: 19-11224

Date Filed: 02/23/2021

Page: 3 of 18

William DuBay and two other individuals created the comic book character
Restin Dane, a.k.a. “The Rook,” in the 1970s. On January 19, 1977, Dane first
appeared in a Warren Publications horror/fantasy comic magazine entitled Eerie
(vol. 82). In 1979, Warren Publications published a comic book series dedicated to
The Rook. The Rook comic book series sold more than 5 million copies from 1977
to 1983.
As the evidence presented in the underlying proceeding established, Restin
Dane is a wealthy scientist/inventor who lives in Arizona in a house shaped like a
rook chess piece, which is known both as “Rook Castle” and “Rook Manor.” Dane
is a time traveler. He invents his own time machines (two resemble rook chess
pieces) and “will go anywhere—any time—in search of adventure!” During his
time-traveling adventures, Dane battles a variety of villains. Dane shares
numerous attributes with other traditional heroes from comic books. He is
handsome, masculine, courageous, and honorable. Dane is selfless and can always
be counted on to “do the right thing.” Dane does not engage in much
introspection; his character arc remains constant throughout The Rook series. In
short, Dane is a traditional comic book hero.
Stephen King is one of the best-known authors of the last half-century.
Although King has written more than 50 works of fiction, this case involves what
he describes as his “magnum opus”—The Dark Tower series. The Dark Tower is
3

USCA11 Case: 19-11224

Date Fiied: 02/23/2021

Page: 4 of 18

comprised of eight novels and a novella, published between 1982 and 2012. In or
around April 1970, King began writing the first novel in the series, The
Gunslinger. First published in book form in 1982, The Gunslinger introduced
Roland Deschain, the protagonist of The Dark Tower series. Between 2007 and
2017, Marvel published licensed graphic novels that were based on The Dark
Tower novels. And in 2017, Media Rights Capital, Imagine Entertainment, and
Sony Pictures Entertainment produced a motion picture adaptation of The Dark
Tower series by the same name.
Throughout The Dark Tower series, Roland Deschain pursues an elusive
structure called the Dark Tower—the linchpin of the space/time continuum—and a
sorcerer called The Man in Black who serves The Crimson King.
Deschain is a complex character. He is courageous and skilled with a gun,
yet he lacks the idealism and morality of the traditional hero. Deschain is a loner
who does not value the lives of others and is, thus, willing to sacrifice those who
get in his way. Sometimes he appears heartless and uncompassionate; other times
he displays an emotional and romantic side that allows him to engage in
introspection and—ultimately—change his behavior. Deschain’s character arc
throughout The Dark Tower series is marked by his search for self-knowledge and
redemption. Thus, Deschain’s journey is not only external—chasing the Dark
Tower and its sorcerer—but also internal. Deschain’s personal journey is difficult.
4

USCA11 Case: 19-11224

Date Filed: 02/23/2021

Page: 5 of 18

He undergoes illness, aging, amputation, and terrible, heart-rending loss. Deschain
ultimately realizes that he cannot find redemption until he reflects on his life and
admits the evil he has done. In short, Deschain is best described as an anti-hero.
Approximately 35 years after the first publication of The Gunslinger,
Benjamin DuBay—the nephew of William DuBay1—sued King for copyright
infringement. DuBay brought one count of copyright infringement against all
defendants; one count of contributory copyright infringement against Media Rights
Capital and Imagine Entertainment; and one count of vicarious copyright
infringement against King, Sony Pictures Entertainment, Marvel Entertainment,
and Simon & Schuster. DuBay alleged that the similarities between Deschain and
Dane were so “shocking and extraordinary” that King must have copied DuBay’s
artistic expression.
During discovery, DuBay moved to compel the production of King’s private
journals from January to May 1977. King objected and argued that the journals
were irrelevant, such production would invade his privacy, and that the request for
the journals was overbroad. After conducting an in camera review of the relevant

1 William DuBay died in April 2010. Benjamin DuBay claims that he received an
assignment of William DuBay’s ownership in The Rook's copyright. The district court
concluded that “the issue of ownership is far from clear.” So it assumed without deciding that
Benjamin DuBay owned a share in the relevant copyright. We also assume for purposes of this
appeal that Benjamin DuBay owns an interest in the copyright.
5

USCA11 Case: 19-11224

Date Filed: 02/23/2021

Page: 6 of 18

journal entries, a magistrate judge denied DuBay’s motion. DuBay did not file
objections to the magistrate judge’s ruling.
King eventually moved for summary judgment. He submitted a copy of the
first novel, The Gunslinger, The Dark Tower motion picture; and excerpts from
The Dark Tower graphic novels. Given the volume of the works at issue (totaling
approximately 4,200 pages), King supported his motion with an expert report
written by Michael Gale, which analyzed the issue of substantial similarity.2 King
also engaged Robin Furth to write character and plot summaries and analyze
quotations from the works at issue.3
In his opposition to the motion for summary judgment, DuBay did not enter
any additional works into the record. DuBay argued that King had access to The
Rook and that the characters were substantially similar because they shared similar
literary and visual elements. DuBay also argued that the “overall look and feel” of
the characters was substantially similar.

2 Gale is an accomplished writer (best known for co-authoring the 1985 motion picture
Back to the Future) and has read extensive collections of science fiction in comics, including the
works at issue in this case. Gale has also provided expert testimony in numerous other copyright
cases.
3 Furth was a research assistant to King and wrote Stephen King’s The Dark Tower: The
Complete Concordance as a writer’s tool for King’s use. Furth has also published more than 50
articles about The Dark Tower series, co-authored the Marvel graphic novels based on The Dark
Tower series, appeared in documentaries and interviews related to the series, and served as a
consultant for the 2017 motion picture and a forthcoming television franchise.
6

USCA11 Case: 19-11224

Date Fifed: 02/23/2021

Page: 7 of 18

The district court concluded that the characters were not substantially similar
and granted summary judgment to all defendants.
DuBay then moved for relief from judgment under Fed. R. Civ. P. 59(e),
60(b)(1), and 60(b)(3), urging the court to reconsider its decision for various
reasons. The district court denied those motions. DuBay timely appealed.
II. DISCUSSION
DuBay raises two issues on appeal. First, DuBay contends that the district
court abused its discretion by failing to exclude Furth’s character and plot
summaries and Gale’s expert report. Second, he contends that the district court
erred when it found that the characters were not substantially similar.4 We address
each issue in turn.
A. Expert Evidence5
First, DuBay contends that the district court abused its discretion by failing
to apply the Daubert standard to the evidence provided by Furth and Gale. See

4 Dubay also challenges the district court’s denial of his motion to compel production of
King’s journals. Dubay, however, abandoned this claim by failing to object below. See Fed. R.
Civ. P. 72(a) (providing that when a magistrate judge decides a “pretrial matter not dispositive of
a party’s claim or defense,” a “party may serve and file objections to the order within 14 days
after being served with a copy” of the decision, and, “[a] party may not assign as error a defect in
the order not timely objected to.”). Because DuBay failed to object to the magistrate’s denial of
his motion to compel within 14 days, he “waived his right to appeal [that] order[] in this Court.”
Smith v. Sch. Bd. of Orange Cty., 487 F.3d 1361, 1365 (11th Cir. 2007). Accordingly, we will
not consider DuBay’s argument.
5 We review decisions regarding the admissibility and reliability of expert testimony for
abuse of discretion, and we will “not reverse an evidentiary decision of a district court unless the
7

USCA11 Case: 19-11224

Date Filed: 02/23/2021

Page: 8 of 18

Daubert v. MerrellDow Pharm., Inc., 509 U.S. 579 (1993). DuBay argues that
Furth’s character and plot summaries were inadmissible because those summaries
were unreliable and irrelevant. According to DuBay, Furth’s summaries were
unreliable because she had a financial interest in the outcome of the case, and she
misrepresented The Dark Tower series by claiming that Deschain does not travel
through time. Furthermore, he contends that the summaries were irrelevant
because they covered elements that were not at issue and, therefore, did not assist
the district court. DuBay also argues that Gale’s expert report was unreliable
because Gale conceded that if Deschain were a traditional time traveler, the
premise of his expert report would be completely undermined.
Expert testimony is admissible if: (1) “the expert’s scientific, technical, or
other specialized knowledge will help the trier of fact to understand the evidence or
to determine a fact in issue;” (2) “the testimony is based on sufficient facts or
data;” (3) “the testimony is the product of reliable principles and methods;” and
(4) “the expert has reliably applied the principles and methods to the facts of the
case.” Fed. R. Evid. 702; see also Crawford v. ITWFood Equip. Grp., LLC, 977
F.3d 1331, 1338 (11th Cir. 2020) (explaining that Daubert requires courts to assess
reliability by considering “(1) whether the expert’s testimony can be and has been

ruling is manifestly erroneous[.]” United States v. Frazier, 387 F.3d 1244, 1258 (11th Cir. 2004)
(en banc) (quotation omitted).
8

USCA11 Case: 19-11224

Date Filed: 02/23/2021

Page: 9 of 18

tested; (2) whether the theory has been subjected to peer review and publication;
(3) the known or potential rate of error of the particular scientific technique; and
(4) whether the technique is generally accepted in the scientific community”
(quotation omitted)).
The Federal Rules of Evidence separately permit a party to introduce “a
summaiy, chart, or calculation to prove the content of voluminous writings,
recordings, or photographs that cannot be conveniently examined in court.” Fed.
R. Evid. 1006; see also United States v. Francis, 131 F.3d 1452, 1457 (11th Cir.
1997) (“Rule 1006 allows the district court to admit... summaries as evidence
[when], in the court’s discretion, it would be inconvenient or unnecessarily timeconsuming to [review all of the writings, recordings, or photographs].”).
In its summary judgment decision, the district court addressed Dubay’s
objections to the evidence submitted by Furth and Gale. As to Furth’s summaries,
the district court noted that the summaries were admissible under Rule 1006 given
the sheer volume of the works at issue. Furthermore, the district court did not limit
its review to the summaries, stating that it would “compare the characters for the
purpose of the substantial similarity analysis using Furth’s summariesf;] Eerie,
volumes 82-85, 87-88 in their entirety[;] and the other materials lodged with the
court.” As to Gale’s expert report, the district court emphasized that it “[was] not
left to rely on expert opinion alone to determine whether the protected expressions
9

USCA11 Case: 19-11224

Date Filed: 02/23/2021

Page: 10 of 18

of the work [were] substantially similar” because “]t]o the extent the works at issue
have been lodged with the [district court], the works themselves have been
scrutinized.”
As an initial matter, DuBay misapprehends the purposes of Daubert and
Rule 1006. Daubert requires the district court “to act as a gatekeeper to insure that
speculative and unreliable [expert] opinions do not reach the jury.” McClain v.
Metabolife Int’l, Inc., 401 F.3d 1233, 1237 (11th Cir. 2005). Similarly, “Rule 1006
allows the district court to admit.. . summaries as evidence [when], in the court’s
discretion, it would be inconvenient or unnecessarily time-consuming to [present
all the evidence to] the jury.” United States v. Francis, 131 F.3d 1452, 1457 (11th
Cir. 1997). The purpose of both rules is to assist the ultimate fact finder. Here,
however, the district court personally examined the works at issue that the parties
submitted and determined that the case could not proceed to a jury because King
was entitled to summary judgment. And because the case would not reach trial,
there was no need for the district court to exercise its gatekeeping function.
In any event, DuBay’s arguments are meritless. DuBay argues that Furth’s
summaries were unreliable and irrelevant and thus inadmissible under Rule 702
and Daubert. But Furth’s summaries were independently admissible under Rule
1006. See WWP, Inc. v. Wounded Warriors Family Support, Inc., 628 F.3d 1032,
1039^40 & n.7 (8th Cir. 2011) (explaining that evidence was admissible either as
10

USCA11 Case: 19-11224

Date Filed: 02/23/2021

Page: 11 of 18

expert testimony under Rule 702 or as summary testimony to prove content under
Rule 1006). DuBay does not dispute that the works at issue are voluminous or that
it would have been inconvenient for the district court to review all the relevant
material. Thus, DuBay does not argue that Rule 1006 was inapplicable. To the
extent DuBay contends that Furth’s summaries were affected by bias, the district
court correctly observed that Furth’s potential bias goes to the weight the district
court should give the summaries—not whether they are admissible. See, e.g.,
Adams v. Lab. Corp. ofAm., 760 F.3d 1322, 1334 (11th Cir. 2014) (explaining that
the “risk of bias. .. goes to the weight of... testimony, not its admissibility”).
And because the district court independently examined the works the parties
submitted, it was well positioned to determine what weight to give to Furth’s
summaries. In sum, DuBay has not shown that the district court abused its
discretion by admitting Furth’s summaries under Rule 1006.
DuBay’s attempt to undermine Gale’s export report is similarly
unpersuasive. DuBay maintains that Gale’s expert report was not admissible under
Daubert and Rule 702 because Gale conceded the unreliability of his own report.
However, Gale made no such concession. DuBay’s counsel asked Gale a
hypothetical question: “If Roland Deschain is a time traveler in the traditional
sense, then wouldn’t that undermine the entire basis of your opinion?” Gale never
entertained the hypothetical and repeatedly insisted that Deschain was “not a
11

USCA11 Case: 19-11224

Date Filed: 02/23/2021

Page: 12 of 18

traditional time traveler.” Thus, DuBay has not shown that the district court
abused its discretion by failing to exclude Gale’s expert report.6
B. Substantial Similarity7
Next, DuBay argues that the district court erred when it granted summary
judgment to King because a reasonable jury could conclude that the characters of
Dane and Deschain are substantially similar. As DuBay sees it, the characters are
substantially similar because they (1) have similar names, (2) interact with towers
that are integral to time travel, (3) have bird companions, (4) are marked by
knightly characteristics, (5) travel back in time to save a young boy who becomes a
gunslinger, (6) wear Western garb, (7) survive a fictionalized Alamo, and (8) use

6 DuBay further challenges the district court’s decision to consider the expert report and
the summaries by arguing that the district court abused its discretion by not affording him relief
under Federal Rules of Civil Procedure 59 and 60. These motions purported to identify further
evidence that Furth’s summaries were biased and unreliable and that Gale lacked the requisite
expertise. On appeal, DuBay asserts—in two sentences—that the district court abused its
discretion because it did not apply the Daubert standards for relevance or reliability to Furth’s
summaries. Apart from this conclusory assertion, DuBay fails to “advanc[e] any arguments or
cit[e] any authorities to establish” that the district court abused its discretion when it denied his
post-trial motions. Sapuppo v. Allstate Floridian Ins. Co., 739 F.3d 678, 681 (11th Cir. 2014).
“[SJimply stating that an issue exists, without further argument or discussion, constitutes
abandonment of that issue and precludes our considering the issue on appeal.” Id. (quotation
omitted). Accordingly, we will not consider DuBay’s argument.
7 We review “a district court’s grant of summary judgment de novo, applying the same
legal standards used by the district court.” Galvez v. Bruce, 552 F.3d 1238, 1241 (11th Cir.
2008). “Summary judgment is appropriate [when] there is no genuine issue as to any material
fact and the moving party is entitled to a judgment as a matter of law.” Wooden v. Bd. of
Regents ofUniv. Sys. of Georgia, 247 F.3d 1262, 1271 (11th Cir. 2001) (quotation omitted). We
“draw all inferences and review all evidence in the light most favorable to the non-moving
party.” Gorss Motels, Inc. v. Safemark Sys., LP, 931 F.3d 1094, 1099 (11th Cir. 2019) (quotation
omitted and alterations adopted).
12

USCA11 Case: 19-11224

Date Filed: 02/23/2021

Page: 13 of 18

knives. He also contends that Dane was the first character that combined these
elements to create a distinctive character that King later copied.
The Copyright Act protects “original works of authorship fixed in any
tangible medium of expression, now known or later developed, from which they
can be perceived, reproduced, or otherwise communicated, either directly or with
the aid of a machine or device.” 17 U.S.C. § 102(a). “Because the Copyright Act
protects ‘original works of authorship,’ the 'sine qua non of copyright is
originality.’” Beal v. Paramount Pictures Corp., 20 F.3d 454, 459 (11th Cir. 1994)
(citation omitted) (first quoting 17 U.S.C. § 102(a) and then quoting Feist Publ’ns,
Inc. v. Rural Tel. Serv. Co., 499 U.S. 340, 345 (1991)). Thus, non-original ideas
and material, such as scenes a faire, are not copyrightable. Id. Scenes a faire are
“sequences of events which necessarily follow from a common theme, or incidents,
characters, or settings that are indispensable or standard in the treatment of a given
topic.” Peter Letterese & Assocs., Inc. v. World Inst. OfScientology Enters., 533
F.3d 1287, 1302 (11th Cir. 2008) (citation and quotation marks omitted).
To establish a copyright infringement claim, a plaintiff must show two
elements: “(1) ownership of a valid copyright, and (2) copying of constituent
elements of the work that are original.” Feist Publ’ns, 499 U.S. at 361. When, as
is the case here, there is no “direct evidence” of copyright infringement, a plaintiff
must prove that: (1) “the defendant had access to the plaintiffs work[,]” and
13

USCA11 Case: 19-11224

Date Filed: 02/23/2021

Page: 14 of 18

(2) “the defendant’s work is substantially similar to the plaintiffs protected
expression.” Beal, 20 F.3d at 459.
Like the district court, we assume that DuBay has proved that King had
access to The Rook, and we will focus our analysis on substantial similarity. 8
Substantial similarity exists when “an average lay observer would recognize the
alleged copy as having been appropriated from the copyrighted work.” Oravec v.
Sunny Isles Luxury Ventures, L.C., 527 F.3d 1218, 1224 (11th Cir. 2008)
(quotation omitted). But because a work may contain uncopyrightable elements,
our task is to “determine[] both whether the similarities between the works are
substantial from the point of view of the lay observer and whether those
similarities involve copyrightable material.” Id. (quotation omitted) (alteration
adopted).
We begin by narrowing down the alleged similarities to elements that are
protected by copyright. First, we agree with the district court that character names
do not merit copyright protection. CMM Cable Rep, Inc. v. Ocean Coast Prop.,
Inc., 97 F.3d 1504, 1519 (1st Cir. 1996) (explaining that mere words and short

8 The district court concluded that it was unnecessary to decide the issue of access given
the lack of substantial similarity between the characters. On appeal, the parties disagree about
whether the evidence establishes that King had access to The Rook. We note that if a plaintiff
cannot establish access, that plaintiff must meet a higher standard of “demonstrating that the
works are so strikingly similar as to preclude the possibility of independent creation.” Herzog v.
Castle RockEntm’t, 193 F.3d 1241, 1249 (11th Cir. 1999) (emphasis added). On this record, we
decline to decide that issue in the first instance. Therefore, we will assume that DuBay has
demonstrated access and analyze whether the characters are substantially similar.
14

USCA11 Case: 19-11224

Date Filed: 02/23/2021

Page: 15 of 18

phrases, even ifthey occur in a copyrighted work, donotthemselvesenjoy
protection against copying); cf. 37 C.F.R. § 202.1(a) (excepting from copyright
protection “[w]ords and short phrases such as names, titles, and slogans”).
Second, we agree with the district court that there are certain similarities at
issue in this appeal that lack originality. Even assuming that the characters share
some similarities concerning their knightly heritage, travel to different times and
parallel worlds, Western attire, fictionalized Alamo histories, and knife-wielding,
these similarities are scenes a faire that are too general to merit copyright
protection. See Peter Letterese, 533 F.3d at 1302; Zalewski v. Cicero Builder Dev.,
Inc., 754 F.3d 95, 102 (2d Cir. 2014) (“[T]he doctrine of ‘scenes-a-faire’ teaches
that elements of a work that are ‘indispensable, or at least standard, in the
treatment of a given topic’—like cowboys, bank robbers, and shootouts in stories
of the American West—get no protection.” (quotation omitted)).
Finally, we turn to what remains: the alleged similarities between the
characters’ relationship to towers and tower imagery, the presence of bird
companions, and the fact that both characters save a young boy from a different
time. Although these elements are similar in the abstract, they are not substantially
similar because the elements are portrayed in different ways. To begin, the towers
serve very different functions for each character. Dane resides in a house that
resembles a rook chess piece and builds time machines with a similar appearance.
15

USCA11 Case: 19-11224

Date Filed: 02/23/2021

Page: 16 of 18

By contrast, the Dark Tower is neither Deschain’s home nor a time machine.'
Deschain is on a quest to find the Dark Tower, which is the nexus that ties different
worlds and dimensions together.
Next, the characters interact with bird companions and imagery in different
ways. Dane is associated with bird symbolism because he wears a belt buckle with
the image of a rook bird and, on at least one occasion, puts on a pair of rook wings
and flies into battle alongside a rook bird. Deschain, on the other hand, encounters
a talking crow and briefly allies with a fighting hawk before sacrificing the hawk
to serve his own ends. Unlike Dane, who only associates with bird allies, Deschain
symbolically becomes the hawk upon its demise.
Finally, the characters’ interactions with young male companions are
dramatically different. Dane travels back in time to the Battle of the Alamo and,
by chance, saves the life of a young boy who turns out to be Dane’s great-great­
grandfather. Deschain also saves and bonds with a young boy, but Deschain later
betrays and sacrifices the boy for the sake of his quest. Even if these elements bear
some similarity, the portrayals of these elements are distinguishable. Given these
distinctive presentations, “no reasonable jury upon proper instruction would find
that the two works are substantially similar.” Beal, 20 F.3d at 459.
In addition to asking us to analyze substantial similarity by comparing each
element side by side, DuBay urges us to consider whether the characters’
16

USCA11 Case: 19-11224

Date Filed: 02/23/2021

Page: 17 of 18

combinations of those elements are substantially similar. DuBay submits that
Dane is a unique expression of those combined elements and that Deschain is a
copy of that expression.
We have recognized the pitfalls of scrutinizing each alleged similarity in
isolation. See Beal, 20 F.3d at 460 (“The district court correctly noted that... lists
[of similarities] are inherently subjective and unreliable, particularly where the list
contains random similarities. Many such similarities could be found in very
dissimilar works.” (citation and quotation marks omitted)); Leigh v. Warner Bros.,
212 F.3d 1210, 1215 (11th Cir. 2000) (“This circuit has noted ... that lists of
similarities between works are inherently subjective and unreliable.”). But by
asking us to take a broader view of the characters, DuBay hurts rather than helps
his case because this more holistic analysis further highlights the distinctiveness of
each character.
Dane possesses many attributes of a traditional comic book hero. He is a
courageous gunslinger and an honorable man. He always does the “right thing.”
He travels through time and fights a variety of villains. And Dane’s character arc
remains constant throughout The Rook series. Deschain, however, is far more
complex. He is courageous and skilled with a gun yet lacks the idealism and
morality integrity of a traditional hero. He uses and sacrifices others out of selfinterest. And Deschain is on an external quest for the Dark Tower and The Man in
17

USCA11 Case: 19-11224

Date Filed: 02/23/2021

Page: 18 of 18

Black and an internal quest for self-knowledge and redemption. Deschain is best
described as a troubled anti-hero. As a result, these characters are surrounded by
different stories and contexts, thereby rendering any similarities superficial.
For these reasons, and those explained in the district court’s thorough
opinion, “no reasonable jury upon proper instruction would find that the two works
are substantially similar.” Beal, 20 F.3d at 459. Accordingly, the district court did
not err by granting King’s motion for summary judgment.9
III. CONCLUSION
For the reasons explained, we affirm the district court in full.
AFFIRMED.

9 Because there was no direct copyright infringement, DuBay’s contributory and
vicarious copyright infringement claims fail. See Peter Letterese &Assocs., Inc. v. World Inst.
OfScientology Enter., 533 F ,3d 1287, 1298 n.ll (11th Cir. 2008) (explaining that there “can be
no contributory infringement without a direct infringement” (quotation omitted)); Leonard v.
Stemtech Int’l Inc., 834 F.3d 376, 386 (3d Cir. 2016) (“[T]o prove a claim of contributory or
vicarious infringement, a plaintiff must first show direct infringement by a third party.”).
18

APPENDIX C
District Court Order (Rehearing).

Case 3:17-cv-00348-HES-MCR Document 147 Filed 11/26/19 Page 1 of 5 PagelD 8369

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION

BENJAMIN MICHAEL DUBAY,
Plaintiff,
Case No. 3:17-cv-00348-J-20MCR

v.

STEPHEN KING; MEDIA RIGHTS
CAPITAL; IMAGINE
ENTERTAINMENT; SONY
PICTURES ENTERTAINMENT;
MARVEL ENTERTAINMENT;
SIMON & SCHUSTER,
Defendants.

ORDER
THIS CAUSE is before the Court on Plaintiff Benjamin Michael Dubay’s “Motion for
Relief from Judgment” (Dkt. 136) and “Motion for Leave to Supplement, with New Evidence,
Plaintiffs Pending Motion for Relief from Final Judgment Pursuant to Fed. R. Civ. P. 60(b)”
(Dkt. 143) as well as Defendants Stephen King, MRC II Distribution Company L.P., Marvel
Entertainment,

Simon &

Schuster, and Sony Pictures Entertainment’s (collectively

“Defendants”) “Opposition to Plaintiffs’ Motion for Relief from Judgment” (Dkt. 140) and
“Opposition to Plaintiffs Motion for Leave to Supplement his Motion for Relief from Final
Judgment Pursuant to Fed. R. Civ. P. 60(b)” (Dkt. 144).
Plaintiff brings his “Motion for Relief’ (Dkt. 136) based on Federal Rules of Civil
Procedure 59(e) and 60(b)(1) and (3). He argues that the Court’s Order (Dkt. 130) finding an

i

Sued as “Media Rights Capital.”
1

Case 3:17-cv-00348-HES-MCR Document 147 Filed 11/26/19 Page 2 of 5 PagelD 8370

absence of substantial similarity of the works at issue was made in error because it was based on
misrepresentations by Defendants. The misrepresentations, Plaintiff reasons, were proffering
“methodologically flawed” expert opinions filled with “clear bias.” (Dkt. 136 page 2). Plaintiff
particularly takes issue with the expert opinion of Robin Furth and offers “newly discovered
evidence” regarding her bias and truthfulness. {Id. and Dkt. 143).
A district court has the discretion to reconsider and alter or amend an order that it has
entered pursuant to Federal Rule of Civil Procedure 59(e). Mincey v. Head, 206 F.3d 1106, 1137
(11th Cir. 2000) (quoting Am. Home Assurance Co. v. Glenn Estess & Assocs., 763 F.2d 1237,
1238-39 (11th Cir. 1985)). However, the law in the Eleventh Circuit is clear: “‘[t]he only
grounds for granting a [Rule 59] motion are newly-discovered of evidence or manifest errors of
law or fact.’” United States v. Marion, 562 F.3d 1330, 1335 (11th Cir. 2009) (quoting Arthur v.
King, 500 F.3d 1335, 1343 (11th Cir. 2007) (per curiam)). Rule 59(e), does not allow a party to
“relitigate old matters, raise argument or present evidence that could have been raised prior to
the entry of judgment.” Michael Linet, Inc. v. Vill. of Wellington, 408 F.3d 757, 763 (11th Cir.
2005) (emphasis added) (citations omitted). See also O’Neal v. Kennamer, 958 F.2d 1044, 1047
(11th Cir. 1992)(citation omitted)(“[Rule 59(e)] [m]otions to amend should not be used to raise
arguments, which could and should, have been made before the judgment was issued.”).
Rule 60(b) of the Federal Rules of Civil Procedure is yet another path for a post judgment
relief. Region 8 Forest Serv. Timber Purchasers Council v. Alcock, 993 F. 2d 800, 806 n.5 (11th
Cir. 1993) (citations omitted). The portions of Rule 60(b) Plaintiff alleges are relevant here
provide that “the court may relieve a party or its legal representative from a final judgment, order
or proceeding for the following reasons: (1) mistake, inadvertence, surprise or excusable neglect;
... (3) fraud ..., misrepresentation, or misconduct by an opposing party.” To prevail under Rule

2

Case 3:17-cv-00348-HES-MCR Document 147 Filed 11/26/19 Page 3 of 5 PagelD 8371

60(b)(3), Plaintiff must ‘“prove by clear and convincing evidence that an adverse party has
obtained the verdict through fraud, misrepresentation, or misconduct.’” Cox Nuclear Pharm.,
Inc. v. CTI, Inc., 478 F.3d 1303, 1314 (11th Cir. 2007) (quoting Frederick v. Kirby Tankships,
Inc., 205 F.3d 1277, 1287 (11th Cir. 2000)). Additionally, Plaintiff “‘must [] show that the
conduct prevented the losing party from fully and fairly presenting his case or defense.’” Id.
Upon consideration of the filings and the relevant case law, the Court sees no reason to
reconsider its prior determination. Plaintiff essentially reargues and reorganizes his Opposition to
Defendants’ Motion for Summary Judgment and attacks the credibility and veracity of Plaintiffs’
experts in a more detailed way. Plaintiff does little more than to ask the Court “to reexamine an
unfavorable ruling.” Jacobs v. Tempur-Pedic Intern., Inc., 626 F.3d 1327, 1344 (11th Cir. 2010).
“Reconsidering the merits of a judgment, absent a manifest error of law or fact is not the purpose
of Rule 59.” Id.
In the Motion before the Court, Plaintiff submits fifty-seven exhibits, made up of 940
pages, and two MP3 files. (Dkt. 136). While a few of these exhibits were already considered,2
the majority of these exhibits were not previously submitted by Plaintiff to the Court, despite
their availability. Plaintiff does not articulate any sensible reason for failing to reference or
include the majority of the evidence contained in his Motion for Reconsideration in his
previously filed, 39-page Opposition to Summary Judgment (Dkt. 120).3 “Denial of a motion to
amend [under Rule 59] is ‘especially soundly exercised when the party has failed to articulate
any reason for the failure to raise an issue at an earlier stage in the litigation.’” O ’Neal, 958 F.2d
2 See e.g. Dkt. 136, Exhibits 4, 47, 54, 55, 56, 57.
3 It appears most of these Exhibits were known to Plaintiff through the discovery process or were
available to the public at the time Plaintiff filed his Opposition. See Exhibit 140, Exhibit 1Declaration of Loralee Sundra. However, Plaintiff does not address this issue in his papers.
Furthermore, upon review of Plaintiffs Motion to Reconsider (Dkt. 136), the Court is not
persuaded that any of this material would have changed the Court’s original opinion.
3

Case 3:17-cv-00348-HES-MCR Document 147 Filed 11/26/19 Page 4 of 5 PagelD 8372

at 1047 (quoting Lussier v. Dugger, 904 F.2d 661, 667 (11th Cir. 1990)). To the extent any of the
exhibits are in fact newly discovered,4 they are either not probative or irrelevant to the grounds in
which the Court explained at length was the basis of its previous Order granting summary
judgment5: the works at issue were not substantially similar in protectible expression.
Plaintiff does not identify what conduct or position was a “mistake, surprise or excusable
neglect.” Fed. R. Civ. P. 60(1). Thus, he fails to make a showing of the presence of any of the
enumerated circumstances listed in Rule 60(b)(1) to grant relief from judgment. Finally, Plaintiff
has failed to show the occurrence of fraud, within the meaning of Rule 60(b)(3), that would have
prevented him from fully presenting his position in this matter, including his position regarding
the evidence profferred by Defendants experts.6
Plaintiff has also requested leave to Supplement the Plaintiffs Pending Motion for Relief
from Final Judgment (Dkt. 143). He seeks to submit March 21, 2019 and June 24, 2019 Twitter
4

Exhibits 43, 45,46, 52 and 53 of Dkt. 136 and Exhibits 1-4 of Dkt.143.

5 The Court did not reach the element of “access” or assess the evidence of “independent
creation” in its Summary Judgment Order (Dkt. 130). As the Court explained, even assuming
there is evidence of access without evidence of substantial similarity, a plaintiff cannot succeed
on a claim of copyright infringement. See Dkt. 130, section VIII. Additionally, ‘“[pjroof of
access and substantial similarity raises only a presumption of copying which may be rebutted ...
with evidence of independent creation.’” Calhoun v. Lillenas Publ’g, 298 F.3d 1228, 1232 (11th
Cir. 2002) (quoting Original Appalachian Artworks, Inc. v. Toy Loft, 684 F.2d 821, 829 (11th
Cir. 1982)).
6 Complaints of bias go to the weight to be given to expert testimony, not the issue of
admissibility. Dugas v. 3M Co., Case No. 3:14-cv-1096-J-39JBT, 2016 WL 1271040, *5 (M.D.
Fla. Mar. 29, 2016) (collecting cases).
Moreover, the concerns raised by Plaintiff with respect to Defendants’ experts, Ms. Furth and
Robert Gale, are not new and were previously raised in the relevant opposition papers. See Dkt.
120, page 18 (internal citations omitted)(“Furth directly benefits from the outcome of this action
... [M]ost of Furth’s income since 2000 has been derived from The Dark Tower and/or Stephen
King works. . . . Furth also wrote each of the infringing comic book issues for Defendant
Marvel.”); Id., pages 19-20 (describing Mr. Gale as an uneducated and biased “glamour witness”
who Plaintiff argued was further unqualified due to his involvement in a previous lawsuit
alleging “intellectual property theft.”).
4

' ‘

Case 3:17-cv-00348-HES-MCR Document 147 Filed 11/26/19 Page 5 of 5 PagelD 8373

posts by a writer from Amazon Studios and a June 24, 2019 Twitter post by Ms. Furth. Plaintiff
argues the posts are relevant because they are further evidence of Ms. Furth’s bias. In light of the
Court’s reasoning herein, that Motion is also due to be denied.
“The Man Who Time Forgot!” will not soon be forgotten— but he is out of this Court.
Accordingly, it is ORDERED:
1. Dubay’s “Motion for Relief from Judgment” (Dkt. 136) is DENIED;
2. Dubay’s “Motion for Leave to Supplement, with New Evidence, Plaintiff s Pending
Motion for Relief from Final Judgment Pursuant to Fed. R. Civ. P. 60(b)” (Dkt. 143)
is DENIED;
3. Defendants’ shall have fourteen (14) days from entry date of this order to modify
their Motions for costs and fees, should they desire to do so.
DONE AND ORDERED at Jacksonville, Florida, this-^ffday of November, 2019.

CT JUDGE

Copies to:
Robby T. Cook, Esq.
Robert R. Fredeking, Esq.
Vincent Cox, Esq.
Louis P. Petrich, Esq.
Raymond F. Treadwell, Esq.
Sanford L. Bohrer, Esq.
Scott D. Ponce, Esq.
Michael Manuel Gropper, Esq.

5

APPENDIX D
District Court for the Middle District of Florida Order (Granting
Summary Judgment).

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 1 of 32 PagelD 6595

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION
BENJAMIN MICHAEL DUBAY,
Plain tiff,

Case No. 3:17-cv-00348-J-20MCR

v.

STEPHEN KING; MEDIA RIGHTS
CAPITAL; IMAGINE
ENTERTAINMENT; SONY
PICTURES ENTERTAINMENT;
MARVEL ENTERTAINMENT;
SIMON & SCHUSTER,
Defendants.
ORDER
THIS CAUSE is before the Court on Defendants’ Dispositive Motion for Summary
Judgment and Memorandum of Law in Support (Doc. 115) and Plaintiffs Response and
Memorandum of Law in Opposition thereto (Doc. 120). After careful consideration of the issues
presented, Defendants’ Motion for Summary Judgment (Doc. 115) is granted. The Corut’s
analysis in support of that conclusion is as follows:
I.

Background
Benjamin Michael DuBay (“Plaintiff’) is a nephew of William Bryan DuBay, one of the

creators of “Restin Dane” also known as “The Rook.” The Rook is a comic book character
whose first story was published in 1977 in a Warren Publications horror/fantasy comic magazine
entitled Eerie volume 82 (hereinafter “Eerie 82”). According to Plaintiff, The Rook character
was distributed in “greater than five million comic magazine copies, throughout the United
1

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 2 of 32 PagelD 6596

States from January 1977 thru March 1983” (Doc. 6, 118). The Rook comic remains available to
the public today in comic books, graphic novels and electronic forms (Doc. 6, 1 20).
Defendant Stephen King is the author of the widely successful series of novels entitled
3.

The Dark Tower. First published in 1982, The Dark Tower has evolved into an eight-volume
series, reimagined and interpreted through various mediums, including film and graphic novels.
Roland Deschain also known as “The Gunslinger,” is the protagonist of the series.
Approximately 35 years after the world first officially1 met Roland Deschain, Plaintiff
brought this action alleging that Roland Deschain is so shockingly and extraordinarily similar to
The Rook that Defendant King must have unlawfully copied and appropriated The Rook
character. (Doc. 6, HI, 24).2 Plaintiff has identified the infringing works as: the eight novels of
The Dark Tower series written by Defendant King and published by Defendant Simon &
Schuster; 16 of The Dark Tower graphic novels licensed by Defendant Marvel; and the 2017
feature film The Dark Tower produced and/or distributed by Defendants MRC,3 Imagine
Entertainment and Sony Pictures Entertainment. Plaintiff argues that because Roland is the
central character in this large volume of works, all works infringe on Plaintiff’s validly held
copyright of The Rook character.

]The entire contents of Defendant King’s first Dark Tower novel, The Gunslinger, were initially
published in five-installments in The Magazine ofFantasy and Science beginning in 1978. (Doc.
115-19,f 11).
4'

2 Plaintiff acknowledges that Defendant Kings manuscript for The Dark Tower may have
predated The Rook’s publication. However, he argues that “Defendant King made significant
transformations characteristically, symbolically, and literarily to his unnamed protagonist
featured in the manuscript after having gained access to Restin Dane.” Plaintiff argues, “[t]hese
transformations can only be explained through willful copying and fraudulent concealment.”
(Doc.6,136).
3 Sued as Media Rights Capital.
2

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 3 of 32 PagelD 6597

On March 28, 2017, Plaintiff filed a two-count complaint against Defendant King
alleging claims for Copyright Infringement and Vicarious Copyright Infringement (Doc. 1, pgs.
28-31). Shortly thereafter, Plaintiff filed an amended complaint naming the remaining
Defendants and adding an additional count for Contributory Copyright Infringement against
Defendants MRC and Imagine Entertainment (Doc. 6, pgs. 44-46).
II.

The Relevant Copyright
Plaintiff claims he is the owner of the copyright for the work entitled “The Rook,”

registered with the United States Copyright Office under Registration Number B188968. The
registration date is February 4, 1977. The initial publication date is January 19, 1977. The
deposit copy for No. B188968 is Eerie 82. (Doc. 6,|21). It is by and through this copyright for
Eerie 82 that Plaintiff claims ownership of the copyright the Defendants are accused of
infringing. For the purposes of this analysis, the Court will treat Plaintiff as the owner of the
relevant copyright for The Rook character.4
III.

Summary Judgment Standard
Summary Judgment is proper if “there is no genuine dispute as to any material fact and

the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). The party moving
for summary judgment bears the initial burden of showing the Court there is an absence of a
genuine issue of material fact to be decided at trial. Celotex Corp. v. Catrett, All U.S. 317, 323
(1986). A party seeking summary judgment has the initial responsibility of “identifying those
portions of ‘the pleadings, depositions, answers to interrogatories, and admissions on file,

4 The Court notes the issue of ownership is far from clear. {See Doc. 118). Nevertheless, the
Court will proceed in the same maimer as the Parties, with the assumption that Plaintiff owns the
copyright upon which this action is based (Doc. 120, pg. 4; Doc. 115, pgs. 3,8).

3

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 4 of 32 PagelD 6598

together with the affidavits, if any’ which it believes demonstrate the absence of a genuine issue
of material fact” Id at 323 (quoting Fed. R. Civ. P. 56(e)). Once the moving party has met its
burden, the non-moving party must present specific facts showing there is a genuine issue of fact
for trial. Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 587 (1986) (citing
Fed. R Civ. P. 56(e)).
An issue of fact is “genuine” if the record could lead a trier of fact to find for the non­
moving party. Allen v. Tyson Foods, 121 F.3d 642,646 (11th Cir. 1997). A “material” fact is one
that “might affect the outcome of the suit under governing law.” Anderson v. Liberty Lobby, Inc.,
477 U.S. 242,248(1986).
When reviewing a summary judgment motion, ‘“The district court should resolve all
reasonable doubts about the facts in favor of the non-movant and draw all justifiable
inferences ... in his favor.’” Hickson Corp. v. Northern Corssarm Co., Inc., 357 F.3d 1256 (11th
Cir. 2004) (quoting United States v. Four Parcels of Real Prop., 941 F.2d 1428, 1437-38 (11th
Cir. 1991)) In so doing, a Court cannot weigh conflicting evidence or determine issues of
credibility. FindWhat Inv’r Grp. v. FindWhat.com, 658 F.3d 1282, 1307 (11th Cir. 2011).
Instead, the Court is “‘limited to deciding whether there is sufficient evidence upon which a
[fact-finder] could find for the non-moving party.’” Georgia State Conference of NAACP v.
Fayette Cty Bd of Com 'rs, 775 F.3d 1336 (11th Cir. 2015) (quoting Morrison v. Amway Corp.,
323 F.3d 920,924 (11th Cir. 2003)).
IV.

Infringement Analysis
Despite what many may think, “Not all copying... is copyright infringement” Feist

Publ'ns, Inc. v. Rural Tel. Serv. Co., Inc., 499 U.S. 340, 361 (1991). To make out a prima facie
case for infringement of a copyright, “two elements must be proven: (1) ownership of a valid

4

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 5 of 32 PagelD 6599

copyright, and (2) copying of constituent elements of the work that are original.” Id:, Peter
Letterese and Assoc., Inc., v. World Inst, of Scientology Enter., 533 F.3d 1287, 1300 (11th Cir.
2008). Because evidence of direct copying is rare, courts have “developed methods by which
copying can be found indirectly.” Beal v. Paramount Pictures Corp., 20 F.3d 454,459 (11th Cir.
1994). Absent direct evidence of copying, a plaintiff must demonstrate (1) the defendants had
access to the copyrighted work and (2) the works are substantially similar to the protected
expression. Id. (citing Original Appalachian Artworks, Inc. v. Toy Loft, Inc., 684 F.2d 821, 829
& n.ll (11th Cir. 1982)). Plaintiff must show both access and substantial similarity to prove
copying. Id. at 460.5
a. Summary Judgment in the Infringement Context
Some courts have found summary judgment to be inappropriate in a copyright
infringement lawsuit because of the “inherently subjective nature of the inquiry.” Oravec v.
Sunny Isles Luxury Ventures, L.C., 527 F.3d 1218, 1223 (11th Cir. 2008) (citing Beal, 20 F.3d at
459 (11th Cir. 1994)). Nevertheless, non-infringement has been found as a matter of law and
summary judgment granted where, either, “the similarity between two works concerns only noncopyrightable elements of the plaintiff's work, or because no reasonable jury, properly
instructed, could find the works are substantially similar.” Herzog v. Castle Rock Entm’t., 193
F.3d 1241, 1247 (11th Cir. 1999) (per curiam) (district court opinion affirmed and annexed to
Eleventh Circuit ruling)(citations omitted)(emphasis added); Oravec, 527 F.3d at 1223 (same);

5 Even if a plaintiff is unable to demonstrate access, he may establish copying by demonstrating
that his work and the infringing works are strikingly similar. Calhoun v. Lillenas Publ'g, 298
F.3d 1338, 1232 n.6 (11th Cir. 2002). Striking similarity exists where the proof of similarity in
appearance is “so striking that the possibilities of independent creation, coincidence and prior
common source are, as a practical matter, precluded.” Selle v. Gibb, 741 F.2d 896, 901 (7th Cir.
1984).
5

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 6 of 32 PagelD 6600

Beal, 20 F.3d at 459 (same).6 This analysis is sometimes called a two-pronged test: (1) an
13 .

extrinsic, objective test, and (2) an intrinsic, subjective test. See Herzog 193 F.3d at 1257 (citing
Beal v. Paramount Pictures, 806 F.Supp. 963, 967 (N.D. Ga., 1992)), aff’d, Beal, 20 F.3d 454;
Lil ’ Joe Wein Music, Inc. v. Jackson, 245 Fed. App’x. 873, 877 (11th Cir. 2007).

14 .

Under the extrinsic test, a court will inquire into whether, as an objective matter, the
protected expression of the works are substantially similar. Id. If, under the extrinsic test, the
plaintiff “seeks to protect only uncopyrightable elements” the court will grant summary
judgment for the defendant Id Pursuant to the intrinsic test the Court will consider whether a
reasonable jury, properly instructed, would find the works substantially similar. If a plaintiff
cannot meet either prong, a court may grant summary judgment. Herzog, 193 F.3d at 1257.
b. The Requirements of Originality and Expression
Just because a work holds a copyright does not mean that that copyright protection
extends to every element of that work. Copyright protection extends to that which is original to
the author. Feist, 499 U.S. at 348. “Copyright protection subsists ... in original works of
authorship fixed in any tangible medium of expression . . . .” 17 U.S.C. § 102(a). Thus “[t]he
sine qua non of copyright is originality.” Beal, 20 F.3d at 459 (quoting Feist, 499 U.S. at 345).
Original in this context means that the work was independently created by the author and
possesses a minimal degree of creativity. Feist, 499 U.S. at 345 (citing 1 M. Nimmer & D.
Nimmer, Copyright §§ 2.01[A],[B] (1990)). Similarly, mere ideas, procedures, principles and
concepts are not protectable by copyright regardless of the manner or form in which such ideas,
procedures, principles and concepts take. 17 U.S.C. § 102(b); Peter Letterese and Assoc., Inc.,
6 See also Lil’ Joe Wein Music Inc. v. Jackson, 245 Fed. App’x. 873, 877 (11th Cir. 2007) (noting
the Second Circuit has approved the grant of summary judgment in copyright cases as it allows
courts to put ‘“a swift end to meritless litigation’ and avoid long and costly trials.”)(quoting
Hoehling v. Universal City Studios, Inc., 618 F.2d 972, 977 (2d Cir. 1980).
6

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 7 of 32 PagelD 6601

553 F.3d at 1302; Herzog, 193 F.3d at 1248. Thus, copyright law balances an author’s “[r]ight to
their original expression,” while still “encourage[ing] others to build freely upon the ideas and
information conveyed by the work.” Feist, 449 U.S. at 349-350.
c. Scenes a faire
In addition to non-original works and broad ideas, noncopyrightable material includes
15 .

scenes a faire, which are stock scenes or, ‘“sequences of events which necessarily follow from a
common theme,’ or ‘incidents, characters of settings that are indispensable or standard in the
treatment of a given topic.’” Peter Letterese and Assoc., 533 F.3d at 1302 (quoting Herzog, 193
F.3d at 1248). See, e.g. Herzog, 193 F.3d at 1262 (holding that characters in a murder mystery
who keep secrets are not protectable); Williams v. Crichton, 84 F.3d 581, 588 (2d Cir.
1996)(holding figures of muscular superheroes in fighting poses are examples of scenes a faire);
Beal, 20 F.3d at 463 (noting that in all works involving courtship and marriage have a wedding,
usually towards the end of the work); Walker v. Time Life Films, Inc., 784 F.2d 44, 50 (2d Cir.
1986)(concluding no protection for “drunks, prostitutes, vermin, and derelict cars,” as well as
“foot chases and the morale problems of policemen, not to mention the familiar figure of the
Irish cop” as they are common elements in police fiction); Warner Bros. Inc. v. Am. Broad. Cos.,
654 F.2d 204,210 (2d Cir. 1981)(observing that the fact that both heroes fight villains is nothing
more “than the classic theme of good versus evil”).
d. Substantial similarity
In the Eleventh Circuit, substantial similarity exists “where an average lay observer
16 .

would recognize the alleged copy as having been appropriated from the copyrighted work.”
Original Appalachian Artworks, Inc., 684 F.2d at 829 (citations omitted). A Plaintiff must
establish “specifically that the allegedly infringing work is substantially similar to the plaintiff’s

7

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 8 of 32 PagelD 6602

work with regard to its protected elements.” Leigh v. Warner Bros., Inc., 212 F.3d 1210, 1214
(11th Cir. 2010) (emphasis in original).
e. Evaluating competent evidence
Plaintiff urges the Court to ignore Defendants’ expert witness Robert Michael Gale.
Plaintiff argues Gale’s expert opinion undermines the lay observer test for substantial similarity,
especially because he does not “test[] the target audience.” (See Doc. 120, pgs. 12-13).
Expert testimony is appropriate in evaluating the “extrinsic” prong of the above-outlined
test, i.e. whether, as an objective matter, the protected expression of the works are substantially
similar. Lil' Joe Wein Music Inc. v. Jackson, 245 Fed. App’x. 873, 877 (11th Cir. 2007). “Under
the extrinsic test, expert testimony and analytic dissection are appropriate.” Herzog, 193 F.3d at
1257. Additionally, the Court is not left to rely on expert opinion alone to determine whether the
protected expressions of the work are substantially similar. To the extent the works at issue have
been lodged with the Court, the works themselves have been scrutinized.
f. Characters are protectable by copyright separate from the work in which they
appear
Courts may consider the copyrightabilily of a character apart from the work in which the
character appears. 1 Nimmer on Copyright § 2.12[A][1] & [2] (2018). However, the character
must be “distinctively delineated” in the plaintiffs work. Id As Judge Learned Hand reasoned,
“[t]he less developed the characters, the less they can be copyrighted; that is the penalty an
author must bear for marking them too indistinctly.” Nichols v. Universal Pictures Corp., 45
F.2d 119, 121 (2d. Cir 1930). Thus, Courts have held characters to have standalone protection
where they have displayed “consistent, widely identifiable traits.” Rice v. Fox Broad Co., 330
7 This issue is discussed further in Section X., infra.

8
'fv-

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 9 of 32 PagelD 6603

F.3d 1170 (9th Cir. 2003). See, e.g., Metro-Goldwyn-Mayer, Inc. v. American Honda Motor Co.,
900 F. Supp. 1287, 1295-97 (C.D. Cal. 1995) (James Bond protectable apart from the works in
which he appeared); D.C. Comics Inc. v. Unlimited Monkey Bus., Inc., 598 F.Supp. 110 (N.D.
Ga. 1984) (Superman protected by copyright); Disney Prods, v. Air Pirates, 581 F.2d 751 (9th
Cir. 1978) (Mickey Mouse and other Disney characters protected by copyright).
The Court finds that the distinctive delineation analysis is encompassed in the analysis
for substantial similarity. The same factors utilized in evaluating distinctiveness are analyzed by
the Court in the discussion of the characters ‘similarities infra. See 1 Nimmer on Copyright
§2.12[A][1] ([t]he inquiry into copyright protection for a character from a work of fiction, along
with whether infringement of the character has taken place belong not to ... the discussion of
copyright’s subject matter, but instead to the inquiry into substantial similarity.”).
g. The Works Examined
“When called upon to adjudicate a copyright dispute, a court must compare the works in
question.” Beal, 20 F.3d at 456 (citing Autoskill, Inc. v. Nat’l Edu. Support Sys. Inc., 994 F.2d
1476,1490 (10th Cir.), cert denied, 510 U.S. 916 (1993)). Plaintiff does not allege that any of the
written works of Defendant King infringe on The Rook character or comics in a specific,
individual capacity. Cf. Beal, 20 F.3d 454 (11th Cir. 1994) (The movie “Coming to America”
was accused of infringing upon a novel entitled The Arab Heart by author Alveda King Beal).
Plaintiff instead relies on a broader theory; the works featuring The Rook and Roland Deschain
are substantially similar based on the characters featured and the themes pursued. (See Doc. 115,
Exhibit 41). Specifically, Plaintiff argues that The Rook and Roland Deschain are “substantially
similar in their unique elements” and their “unique combination of common traits” (See Doc.
120, pg. 15).

9

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 10 of 32 PagelD 6604

It is the Plaintiffs position that the unique elements of The Rook “became welldelineated in a two-part story published in Eerie 82 in March 1977, where the character Restin
Dane, aka The Rook was introduced,” (Doc. 120, pg. 15).8 To that end, Plaintiff has included in
his summary judgment response the full stories featuring The Rook appearing in Eerie, volumes
82-85,87-88 (Doc. 120, Exhibits 1,1A, IB, 1C, ID, IE).
Defendant King’s novels alone compromise approximately 4,000 pages written over 25
years. Due to the volume of the works at issue, Defendants engaged Robin Furth to author
summaries of Roland Deschain’s character arc plot summaries for both Defendant King’s prose
and Marvel’s graphic novels. Due to Plaintiffs character-based, thematic and general allegations
of infringement, the Court will compare the characters for the purposes of the substantial
similarity analysis using Furth’s summaries, Eerie, volumes 82-85, 87-88 in their entirety,9 and
the other materials lodged with the Court.10

8 Plaintiff specifically claims that, “p]n the inaugural arc, Restin Dane’s name, anachronistic
cowboy look, time traveling heroism, black bird companion, tower relationship, and the Alamo
history are well established unique elements.” He further claims that the “unique combination of
the otherwise common elements described in Plaintiffs amended complaint, are afforded
protection... .’’Doc. 120,pg. 15.
9 Eerie 86 was not included in the materials provided to the Court The Court is not aware if The
Rook appeared in Eerie 86.
10 Federal Rule of Evidence 1006 allows a party to “use a summary, chart, or calculation to prove
the content of voluminous writings... that cannot be conveniently examined in court,” provided
they are made available to the opposing party. Fed. R. of Evid. 1006. See United States v.
Francis, 131 F.3d 1452, 1457 (11th Cir. 1997) (noting that Rule 1006 allows a District Court to
admit summary evidence, where, in the court’s discretion, it would be “inconvenient or
unnecessarily time-consuming” to review the full evidence) (citations omitted). Defendants
invited Plaintiff to lodge the full works with the Court, if they deemed it necessary due to a belief
in the inaccuracy of the summaries. Plaintiff chose not to lodge the Defendant King’s works for
the Court’s review in analyzing this matter and does not contest the accuracy of the summaries.
Rather, Plaintiff disputes the accuracy Furth’s deposition testimony, arguing that Furth has
motive to lie about the relevant issues because she has an employment relationship with
Defendant King and authored the alleged infringing graphic novels. (See Doc. 120, pgs. 18-19).
10

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 11 of 32 PagelD 6605

To proceed with the analysis, the Court will first examine the general characteristics and
story arc of The Rook. The Court will then examine the general characteristics and story arc of
Roland Deschain arc as featured in the alleged infringing work of the Defendants.11 The Court
will then identify the similarities between each work and examine which of those similarities are
scenes a faire. The Court will then conduct the substantial similarity analysis between the
original expression of The Rook and the alleged infringing works featuring Roland Deschain.
Beal, 20 F. 3d at 459. See also Leigh, 212 F.3d at 1215.
V.

The Rook
a. Creation
William M. Dubay, Budd Lewis and James “Jim” Stenstrum, created The Rook during

the fall of 1976. Mr. William Dubay died in 2010. Mr. Stenstrum is the only surviving member
of the trio. Plaintiff describes The Rook as a “time-traveling, parallel/altemate world traveling,
monster-fighting, romantic adventure hero; who has a penchant for dressing as a cowboy from
the Old West and is symbolized by a rook bird” (Doc. 6, |16). A few years after his initial debut
in Eerie, The Rook was given his own magazine, entitled The Rook. After his title magazine was
cancelled, The Rook again appeared in Erie magazine. Warren Publishing eventually went
bankrupt and ceased all further publication of The Rook character. The Rook series again
appeared in a mini-series was revived by Dark Horse Comics in 2015 and is available and by
GooglePlay in a mobile video game (Doc. 6, f 20).

The issues raised by Plaintiff are relevant weight to be given to Furth’s testimony, not its
admissibility or sufficiency.

11

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 12 of 32 PagelD 6606

b. The Man Who Time Forgot!
“He was bom . . . Restin Dane but he calls himself. . . THE ROOK!” An exciting and
light-hearted comic, The Rook character is first introduced to readers in Eerie 82 in classically
exciting, catchy and heroic terms: “The Most Exciting New Hero in Comics!” and “The Master
of the Past, Present and Future!” The Rook is a hero in the traditional mold. He is self-made,
likeable, charming and a successful adventure hero. Restin Dane calls himself The Rook because
of the “shrewd killer chess piece” in the shape of “an impregnable castle,” that he travels through
time in and because he moves through time as quickly and mysteriously as “the black bird of
prey ... known also as... The Rook!”
Like Batman’s Bmce Wayne, The Rook is a wealthy inventor/techno physicist, who
experiments with the science of physics, computers and advanced robotronics. The Rook
designed the time traveling devices he uses. He most commonly uses a time machine in the
shape of a large rook chess piece, although a time machine shaped as a knight chess piece is also
featured in the series. He calls traveling through time “castling.” The Rook has also built robots
to serve as his team of assistants. The most prominently featured robot is a computer robot butler
named “Maimers.” Two more rudimentary robots, aptly named “Nuts” and “Bolts” are also
mentioned.
Eventually, The Rook’s crime fighting team is comprised of himself, his great, great
grandfather Bishop Dane, an outlaw gunfighter whom he rescued from 1874 and Manners. (See
Eerie 85, 120-1C). The action primarily takes place in the Old American West, but The Rook
lives in modem day Arizona in a house called “Rook Manor” or “Rook Castle” which is also
shaped like a giant rook chess piece. The Rook has built an underground headquarters there,
where he stores his time machines.

12

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 13 of 32 PagelD 6607

The Rook is a bachelor. He is young, raggedly handsome, square jawed with dark hair
and thick sideburns and a muscular physique. The Rook does not age and remains in his prime,
despite passing years. Although The Rook’s attire changes slightly as his adventures progress, he
basically subscribes to the same old American West look throughout.12 He mostly wears dark
jean or black, bell bottomed pants, a tom white or light, long sleeve collared shirt, a dark vest,
leg holster, and a belt with a large buckle containing the image of a rook bird, an animal similar
in appearance to the common crow. The Rook often, but not always, wears a black cowboy hat
with a somewhat reflective silver, hatband. He is frequently armed on his adventures with a
revolver, a Bowie knife, and a machine gun.
The Rook’s desire “to escape the time in which he is imprisoned” and interest in his
ancestral history initially motivates his time travel. Resourceful and brave, The Rook strives to
do the right thing, even if it means sacrificing himself or placing himself in harm’s way. The
Rook’s main adversary in Eerie is Gat Hawkins. Hawkins wants to be the “Master of All Time”
and torments The Rook in his quests {Eerie 84, Doc. 120-3). In Eerie 87, Granny Gadget is also
introduced as a villain (Doc. 120-4).
c. As Featured in Erie 82
The Reader learns The Rook spent a lifetime preparing to time travel, and when he was
finally able, his goal was to travel to save Parrish Dane, a relative, who died in the Battle of the
Alamo. The Rook character’s main storyline in this comic surrounds the Battle of the Alamo and
his attempts to save Parish Dane. The Rook goes castling in his rook time machine, to the
famous 1836 battle. The Rook introduces himself to Davy Crockett, Colonel William Travis,
Colonel James Bowie, and Parrish Dane, who he fights alongside defending The Alamo. The
12 Plaintiff labeled the image of The Rook contained on page 21 of the complaint to define the
look of his character (Doc. 6).
13

Case 3:17-cv-00348-H ES- MCR Document 130 Filed 03/01/19 Page 14 of 32 PagelD 6608

Rook desperately wants to save all the fighters at the Alamo, but even he and his modern
weaponry could not survive the onslaught of the Mexican army. Although he cannot save Parrish
Dane, The Rook saves a boy, who was fighting alongside Colonel Bowie. The Rook sweeps the
boy, who is later revealed to be Bishop Dane, into his time machine and transports him to the day
after the climatic Battle of the Alamo, ensuring the boy’s survival. The boy appears to be the sole
survivor of the Battle, except for The Rook. The Rook returns to Rook Manor, awash in failure,
and in deep despair he could not fulfill his life’s mission of saving his ancestor Parrish Dane.
VI.

Roland Deschain
a Creation
According to Defendant King, the character of Roland Deschain, also known as the

Gunslinger, was developed over three decades, beginning in 1970. {See Doc. 115-19, ft 9,14).
The seventh volume of The Dark Tower series was published in 2004. In 2012, Defendant King
published a standalone novella, The Wind Through the Keyhole, that fits chronologically between
the fourth and fifth Dark Tower novels.
35 .

Defendant King identifies a variety of sources as his inspiration for Roland and The Dark
Tower novels, including: J.RR. Tolkien’s The Lord of the Rings; Robert Browning’s poem,
“Childe Roland to the Dark Tower Came,” which is about a young man, “on a quest for a
mysterious dark tower” (Doc. 115-19, f 5);13 Clint Eastwood’s character, “The Man With No
Name” featured in spaghetti westerns beginning in the 1960s, including the film The Good, The
Bad, and The Ugly, and author Clifford Simak’s science fiction novel Ring Around the Sun.
(Doc. 115-19, ff5-8).

13 Defendant King points to several other elements present in the poem that purportedly heavily
inspired The Dark Tower, such as a great black bird, knights, and a character named Cuthbert, a
horn, and the notion that Roland Deschain is the final gunslinger. Id
14

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 15 of 32 PagelD 6609

Defendant King purports to have had little to do with the illustrations of Roland. (Doc.
115-19,1115-16). He points out that the illustrations of The Gunslinger vary greatly from book
to book and The Gunslinger played by actor Idris Elba in the film, The Dark Tower did not
“strictly conform” to the image of Roland he wrote. Id at 116.
b. The Gunslinger
In the first installment of The Dark Tower series, The Gunslinger, Roland lives in a postapocalyptic Mid-world. Mid-world is a parallel, alternate version of our world that is a
compilation of familiar settings: the Old American West, a feudal society, a magical universe,
wasteland and a distant future. Within Mid-world, there are remnants of familiar technologies
and appliances such as defunct oil derricks, tanker trucks, robotics and machinery, and mostly
empty but seemingly technologically advanced cities. In the Court’s view, Mid-world may be
considered as the hub, while all other parallel worlds are spokes off the central hub.
Roland is descended from Mid-world royalty, Arthur Eld, an architype of King Arthur.
He has no living relatives. He can enter the consciousness of people and has the power to
hypnotize. He is a deft and accurate shooter of his western-style revolvers and can reload them in
an instant. Roland was bom in a feudal city-state called Gilead. At the top of the feudal society
were the Gunslingers, reminiscent of knights, who dressed like cowboys, and were lethal shots.
Gilead falls, and only Roland was left alive, the last Gunslinger. His quest is to find the Dark
Tower, the nexus of all worlds and the linchpin of space and time, and protect it from destruction
by The Man in Black; who goes by different names and appears in different iterations, including
Walter O’Dim, Randall Flagg, and Marten Broadcloak.
At the very least, Roland is a complex protagonist, who as the novels progress, is
revealed to be an anti-hero, a profoundly tortured and flawed individual. He does not always do

15

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 16 of 32 PagelD 6610

the “right thing.” His actions are, at best, ethically ambiguous. He smokes, drinks, lies,
manipulates and commits crimes.

«.r •«; '

For Instance, in The Gunslinger, Roland acts with depravity. Believing that a mad
preacher, Sylvia Pittson, had engaged in sexual relations with the villainous Man in Black and is
pregnant with a demon, Roland rapes her with a gun. Angry, Pittson sends her congregation after
Roland. They are armed with stones, wood and other primitive weaponry. Roland starts shooting
her congregation in self-defense, however it quickly turns to murder. By the end of the
encounter, Roland has shot and killed 39 men, 14 women, including his lover, and five children.
After the massacre, he goes to a honky-tonk, has burgers and beer and then falls asleep.
One character who plays a major part in the series is Jake Chambers, who is introduced in
The Gunslinger. Jake was from New York City and died when he was hit by a car. In an
unexplained way, Jake is transported to Mid-world after his death. Roland hypnotizes Jake and
grows to love him, but believes he is a trap set by the Man in Black. Roland promises to take
care of Jake, all the while knowing he will eventually kill him. Eventually, Roland leaves a
teetering Jake to fall to his death, choosing instead to pursue the Man in Black. Roland realizes
he has damned himself. This act begins Roland’s evolution from a heartless killer to a character
capable of love and compassion. The Dark Tower series is not Roland’s literal journey to the
Dark Tower, but a morality play for Roland’s inner quest for redemption.
Roland does travel between parallel worlds in the works. In The Drawing of Three,
Roland sees three, magical stand-alone doors, with each leading to the mind of a person from
New York City. The first door is to the mind of Eddie Dean; the second is to the mind of Odetta
Susannah Holmes/Detta Walker, and the third is to the man who originally killed Jake. Eddie is a
heroin addict, and Odetta is amputee with multiple personality disorder. Odetta’s two
\

16

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 17 of 32 PagelD 6611

personalities eventually merge, and she then calls herself Susannah. Eddie and Susannah become
part of Roland’s group. Roland, who at first cared little for others, begins to show compassion
and reforms his ways. Roland eventually draws a magic doorway and draws Jake back into Mid­
world. Roland promises to protect Jake.
Throughout his quest, Roland interacts with many science-fiction and supernatural
elements, such as a monster that bites off two of his fingers, and a gang of cannibalistic mutants.
Roland grows old throughout the series and is afflicted with rheumatism. His epic quest ends on
a metaphysical tone. When he finally reaches the Dark Tower, he is faced with all of his sins.
Roland learns his true adversary is himself. He is doomed to repeat his journey again and again,
until he learns to change.
c. The Graphic Novels
The graphic novels focus on the adventures of Roland in his quest for the Dark Tower. Most
of the graphic novels center on the many trials and tribulations that transformed Roland from a
young, learning gunslinger, to a hardened killer.
d. The Dark Tower Feature Film
The actors Idris Elba and Matthew McConaughey play Roland and The Man in Black in
the 2017 The Dark Tower movie. The movie deviates from the books. The main characters are
Roland, Jake Chambers, and the Man in Black. The plot involves The Man in Black abducting
psychic children to use their mental abilities, called “the shine,” to bring down the Tower,
allowing darkness to reign. The first act features Jake being transported to Mid-world where he
encounters Roland. The pair have a series of action-packed encounters. The Man in Black and
Roland eventually fight in New York City, with Roland emerging victorious. Roland saves the

17

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 18 of 32 PagelD 6612

Tower, Jake and the abducted children. The movie ends with Jake and Roland returning to Mid­
world.
Movie Roland looks quite different than the Roland featured in the artwork in the novels
and graphic novels. He is clad in tight, black leather. He is African American and does not age.
A significant portion of the novels is spent examining Roland’s past, this is less prevalent in the
movie. Movie Roland is more one dimensional and goes through far less character development
The movie’s theme is centered on external rather than internal redemption.
VII.

Analysis of Substantial Similarity

In an effort to illustrate the similarities between the two protagonists, Plaintiff describes
that Roland Deschain, like The Rook,
is a quasi-immortal time-traveling, monster-fighting, romantic
adventure hero who descends from an immortal, is symbolized by a
rook bird, dresses in cowboy garb despite not being from the Old West
and who descends from Gilead, a homage to Goliad “The Other
Alamo”, who traverses time through dimensional doors connected to a
tower who is in the aesthetical likeness of Restin Dane as well as
having been similarly named consistent with an admitted signature
symbolization device of Defendant King’s....
(Doc 115-41)( grammar errors in original).14 “In determining whether a character in a second
work infringes a cartoon character, courts have generally considered not only the visual
resemblance but also the totality of the characters’ attributes and traits.” Warner Bros. Inc. v.
American Broad. Co., Inc., 720 F.2d 231 (2d Cir. 1983) (citations omitted).
The Court has examined all the purported similarities, including the totality of the
characters’ attributes and traits. However, “it would be neither useful nor judicious to detail each

14 Plaintiff describes the similarities slightly differently in each relevant document, however, the
crux of the description remains the same.
18

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 19 of 32 PagelD 6613

and every one.” Beal, 20 F.3d at 460. The Court will instead detail the analysis of those claimed
similarities that are the most significant and representative. Id.
The Court finds Plaintiffs characterization above, while somewhat true, analyzes the
characters at such a high level of abstraction and generality that it does not truly reflect the
characters or their shared traits. Analyzing most adventure heroes with such a high level of
abstraction would lead to a finding of infringement. Plaintiff ignores the true details and context
that makes each character unique in his own right.
Witness Gale illuminated how a high level of abstraction and generalization can lead to
an erroneous conclusion. To illustrate, he compared two movies: The Wizard of Oz and Star
Wars. (Doc. 115-6, pg. 67). Both films feature main characters who lives with an Aunt and
Uncle in a rural environment, leave home to go on a quest, are accompanied by a character made
of metal important to the success of the quest (the Tin Man/C3PO Robot) and a hairy character
(The Cowardly Lion/Wookie), and seeks a wise old man for help (The Wizard/Obi Wan
Kenobi). The villains in both films dress completely in black (The Witch/Darth Vader) and wear
distinctive headgear (Witch’s hat/Darth Vader’s helmet). Yet, no reasonable person would call
the movies Star Wars and The Wizard of Oz substantially similar works. (Doc. 115-6, pg. 67).
An illustration of this adage was made by the Eleventh Circuit in BUC International
Corp. v. International Yacht Council Ltd, 489 F.3d. 1129, 1142-43 (11th Cir. 2007) in
explaining the difference between copyright law protecting the expression of ideas and not the
ideas themselves. Assuming the book Moby Dick was not in public domain the Court stated,
“[t]he idea of hunting a formidable whale at the lead of an eccentric captain is not protected by
copyright law. The expression of this ideas as it is encapsulated in the novel Moby-Dick
however, is protected by copyright.” Id. at 1143.

19

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 20 of 32 PagelD 6614

a. Adventure Seekers
Both Roland and The Rook are the adventure-seeking protagonists of their stories. As
Plaintiff points out, they are the stories to be told. The Rook seeks to do the “right thing.” He is
upbeat and motivated by a desire to correct history, and make things better. In other words, The
Rook is a classic hero.
Roland, however, is not a classic hero. He is at times, dark and brooding. He kills in cold
blood, leaves Jake to die, sacrifices those around him to reach the Dark Tower and is on a quest
for redemption. While Roland and The Rook are both adventurers, the comparison stops there;
the Court does not find the type of adventures, motivations for the adventures, or the characters’
actions during the adventures to be substantially similar.
b. Time Travel
Time travel is an element in both works. Defendants point out that Roland does not time
travel; rather he “visits parallel worlds that are not his own.” (Doc. 120, Furth Deposition, pg.
50) That distinction in label notwithstanding, the act of entering different time periods plays a
different role in each work. The Rook’s desire to time travel and the adventures he has while
time traveling are central storylines. Time travel is the hook; it is the thing that provides him
adventure and a platform to succeed in adversarial situations. The Rook uses time travel in
attempt to correct perceived wrongs in history, or to save those he loves. This is best illustrated
by some of the catchy headlines associated with The Rook’s comics: “His time... was any time!
Every time!” and “The Master of the Past, Present and Future!” The Rook can choose what time
period he would like to travel to. For example, he travels to 1836 and the Battle of the Alamo.
The Rook is technologically savvy. The machine most used in the Eerie series look like a rook

20

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 21 of 32 PagelD 6615

chess piece or a castle. It is time travel in the classic sense; he gets into a machine and arrives in
a different time. Usually, The Rook can travel through time whenever and wherever he chooses.
In Roland’s quest for the Dark Tower, time travel is not the adventure itself and is less
central to the plot. Time travel is a means to an end. When he does travel, Roland does not use a
time machine. Rather he travels through literal doorways to parallel worlds connected to a
particular character. The worlds are not always synchronized in time, and the portals are
sometimes thin, so that the parallel worlds mingle. Roland has no control over where and when
he will travel to. Likewise, Roland cannot choose where the portals lead, only whether to enter
them.15
The element of time travel in each work is not substantially similar. Even if this Court
found that the element of time travel was a similarity between the two works, time travel in the
general sense, is hardly a unique, original expression. See, e.g., the films The Time Traveler's
Wife, Kate and Leopold, Back to the Future, The Time Machine, and Midnight in Paris. At least
one court has found that involuntary time travel is so pervasive, that it is not subject to copyright
protection. Feldman v. Twentieth Century Fox Film Corp., 723 F. Supp.2d 357, 366 (D. Mass
2010) (noting that warning signs of upcoming time travel, after effects showing time traveling is
complete, a tragic romance related to time traveling, and significant consequences as a result of
time travel are scenes a faire or stock scenes in the portrayal of time travel).
c. Gunslingers
Plaintiff claims that both Roland and Restin “descend from a familial line of
gunslingers.” Gunslingers as imagined by popular culture are personified by The Rook and

15 While both works mention traveling via time fragments or doorways, the Court finds that this
similarity is animated in different ways. The Rook travels on fragments or doorways by using his
time machine. Roland has no machine.
21

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 22 of 32 PagelD 6616

Bishop Dane, someone in the American West who carried a gun and was an excellent, quick
shot However, what it means to be a gunslinger on Mid-world is independently defined by
Defendant King within The Dark Tower novels and contains only some pop-culture elements. As
imagined by Defendant King, Gunslingers are a caste of elite, aristocratic gunfighters who train
from childhood to be heroes. They have a code of honor. Roland is a descendent of royalty, and
his father was a leader of the gunslinger caste.
Readers do not learn about The Rook’s immediate ancestral history in Erie. However,
readers do learn that his great, great grandfather Bishop Dane was performing as a classic,
western, gun fighter before he met The Rook. While both The Rook and Roland have a familial
history of gun fighting, those histories manifest in different ways and are not substantially
similar.
d. The Towers
The Rook and Roland are similar to the extent that medieval towers play a large role in
their adventures. However, the looks and function of each tower are different. Rook Manor is
The Rook’s lair. It is his tower-shaped home base where he stores his time machines, keeps his
robots, watches recordings of his travels called “time tapes,” and rests between adventures. The
tower time machine serves as a vehicle by which The Rook goes on his time traveling
adventures. Both towers look like cartoonish versions of their namesake, the rook chess piece.
Roland’s Dark Tower serves as the linchpin of a time and space continuum; not a home,
not a time machine. Its look is gothic, ornate and menacing. It is often featured rising out of a
swath of hazy fog. In the illustrations, the Tower is often set far in the background, reminding
readers that Roland is nomadic; his quest is long; and his redemption distant The towers are not
alike, and do not serve like roles in each work.

22

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 23 of 32 PagelD 6617

e. Romantic
Plaintiff claims that a point of similarity between the characters is that both The Rook
and Roland romantically interact with women. Even if having a protagonist who has romantic
interactions with women is an original expression, The Rook and Roland’s interactions with
women could not be more different While Roland softens as his adventures continue, his
interactions with women are often shocking and violent He impregnates his first and only love
Susan Delgado and then leaves her. She is then burned alive as he escapes, illustrating the
sacrifices he is willing to make in his quest for the Dark Tower. His rape of Pittson with his
firearm is shocking.
The Rook is classically dashing and romantic. For example, In Eerie 83, The Rook is
romantically interested in January Boone and Kate McCall. When trouble ensues, Ms. Boone
pleads with The Rook to keep himself safe and return to her. The pair then share a kiss. Later,
while landing a punch against Hawkins and his allies, The Rook cheekily says, “This one is for
Kate,” “This one is for Jan.”
f. The Bad Guy
Plaintiff points out that the nemesis of both characters is “the man in black.” (Doc. 6, pg.
26, #14). What Plaintiff means is that both characters’ nemesis wears black. However, both
versions of Plaintiffs assertion are misstatements. The Rook, as he is featured in Eerie, has
varied enemies. While it is true Hawkin makes an appearance in multiple episodes, the villain
The Rook is tasked with defeating depends on the time traveling adventure he finds himself in.
Roland’s nemesis throughout the books, though known by multiple names and
incarnations is one being, The Man in Black. The Man in Black seeks to destroy the Dark Tower

23

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 24 of 32 PagelD 6618

and bring chaos to Mid-world. Roland has one constant and animating enemy throughout his
quest.
Even if both characters had one significant adversary in their quests that only wore black,
this is hardly original expression; Venom (Spiderman), Darth Vader (Star Wars),. Black Manta
(Acquaman) and The Wicked Witch of the West {The Wizard of Oz) are all villains who wear
black.
g. Overall Look
The Rook and Roland’s looks are similar. They both wear western gear and recall
imagery of the Old American West. However, neither look is original or distinguished. The
overall look of each protagonist is a mishmash of stock elements or scenes a faire of western
heroes. Surviving Rook co-creator, Stenstrum’s testimony is illustrative of this point (Doc. 11560). Stenstrum testified that Mr. William Bill DuBay asked Stenstrum to make a costume for The
Rook that he could quickly show Warren Publishing. Within minutes, knowing the comic was a
Western, he “grabbed things [he] remembered from the past.” (Doc. 115-60, pg. 53). Stenstrum
best explains his inspiration for the look of The Rook:
There was the vest and the shirt from Rod Taylor16 and it was—the hat
I remembered from a TV show. I’m not sure if it’s the proper one, but
it had a very interesting look. It was a -it had these kind of disks that
were put together to form a kind of a band and it was a.... Anyway, I
had taken that and I threw that hat together and - the black I took
from—I always like Paladin from -the big old hat from “Have Gun Will Travel.[”]17 So I made him pretty much all black except for the
white shirt....
16 The actor Rod Taylor played H. George Wells in The Time Machine, the 1960 film based on
the book by author H.G. Wells of the same name.
17 Have Gun-Will Travel was a Western TV series in the late 1950s early 1960s, featuring a man
named Paladin, played by Richard Boone, who was a professional gunfighter who traveled
around the Old West.
24

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 25 of 32 PagelD 6619

(Doc. 115-60, pgs. 53-54).
According to Defendant King, he did not create or supervise the illustrations or cover art
for any of The Dark Tower novels, the film or the graphic novels. (See Doc. 115-19).18 Even
assuming he had, the Court notes that Roland appears differently in each novel, each graphic
novel, each version of the same novel. However, the look is similar at its core, a western, or
cowboy looking loner in often desolate or eerie surroundings (See Doc. 115-32).
The Rook’s look, that of a cowboy, is the customary, stock-treatment given to those
characters set in the old west or worlds similar to the old west, it is the definition of scenes a
faire. See Zalewski v. Cicero Builder Dev., Inc., 754 F.3d at 102 (“[Elements of a work that are
‘indispensable, or at least standard, the treatment of a given topic’- like cowboys, bank robbers,
and shootouts in the American West—get no protection.”) (quoting Hoehling v. Universal City
Studios, Inc., 618 F.2d, 972, 979 (2d Cir. 1980)).The variation in each character’s western look
between years and stories underscores this point. The characters do not have unique looks. One
would expect a character who lives in Mid-world, akin to the Old West, to wear western gear.

'* Defendant King has indicated in his book On Writing, that he leaves space for the reader to fill
in the physical details of his character’s appearances. He writes,
I can’t remember many cases where I felt I had to describe what the
people in a stray of mine looked like—I’d rather let the reader supply
the faces, the builds, and the clothing as well. If I tell you that Carrie
White is a high school outcast with a bad complexion and a fashionvictim wardrobe, I think you can do the rest, can’t you? I don’t need to
give you a pimple-by-pimple, skirt-by -skirt rundown. We all
remember one or more high school losers, after all; if I describe mine,
it freezes out yours, and I lose a little bit of the bond of understanding I
want to forge between us. Description begins in the writer’s
imagination, but should finish in the reader’s.
(Doc. 115-19, pg. 6)
25

i

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 26 of 32 PagelD 6620

One would expect a character living in Arizona in the 1970s who frequently time travels to the
Old West to wear western gear.19
The looks of both Roland and The Rook are so widely used to represent Western
protagonists that they are not original. For instance, actors Clint Eastwood in the movie Joe Kid,
Earl Holliman as Sundance in the TV series Hotel De Paree, and Rory Calhoun in The Domino
Kid all look like The Rook, square jawed, cowboys, wearing wide brim dark hats. (See Doc. 1166,pg.23).
Plaintiff further argues that both The Rook and Roland have medium-length hair, that is
dark, sometimes unkempt, with long-thick sideburns (See Doc. 6). The description Defendant
King provides of Roland in his writings is someone who is thin with black hair, blue, eyes. These
general physical characteristics are not protected by copyright. See Whitehead v. Paramount
Pictures Corp., 53 F.Supp. 2d 38, 50 (D.D.C. 1999Xnoting that “general characteristics such as
black hair, intelligence patriotism and slight paranoia ... are not copyrightable and do not
establish substantial similarity.”)
h. Name
Plaintiff argues that because both Roland Deschain and Restin Dane (“The Rook”) have
the initials R.D, this is an indicia of copying. However, this is a similarity without import Even
if the protagonists were to share the same exact name, this “by itself is insufficient to establish
substantial similarity between die characters.” Hogan, 48 F.Supp.2d at 3119. See also 37 C.F.R.

19 The Court does not agree with Plaintiffs assertion that Roland is wearing a uniform out of his
time. Defendant King has defined his own world for Roland, one which is akin to the Old
American West. The Court also finds Plaintiffs argument that The Rook’s look is anachronistic
is contradicted by the comic itself. “His time . . . was any time! The Place he called home . . .
The Old West!” (Doc. 120-1, Eerie 82)
26

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 27 of 32 PagelD 6621

§ 202.1(a) (“words and short phrases such as names, titles, and slogans . . . mere variations of
typographic ornamentation, letting or coloring...are excluded from copyright protection).
i. Historical References
Plaintiff argues that The Rook and Roland are substantially similar because they both
feature the Battle of the Alamo, an event where there were no survivors, yet manage to survive in
their respective stories. (Doc. 6, ^ 37). Roland was bom and raised in a place called Gilead,
which eventually falls, and all of Roland’s fellow gunslingers are slaughtered. Plaintiff claims
that the name Gilead is an homage to Goliad, a massacre of the Texan Army by the Mexican
Army in the Texas Revolution, sometimes known as “The Other Alamo.” Id. The Rook’s
ancestral heritage is traced to the Battle of the Alamo, and in his inaugural story arc, The Rook
time travels back to The Alamo and fights alongside James Bowie and Dawy Crockett
This similarity is not subject to protection. The Battle of the Alamo, or the concept of a
group of people under siege, is not unique. It is not original. It is a historical event “in the public
domain, free for others to draw upon,” subject to the imagination and reimagination of artists.
Zalewiski, 754 F.3d 95 at 102. As one court has explained,
[A]ny author may draw from the history of English-speaking peoples,
but not one may copy from A History of English- Speaking Peoples.
Any artist may portray the Spanish Civil War, but no one may paint
another Guernica. And anyone may draw a cartoon mouse, but there
can be only one Mickey.”
Id That both Roland and The Rook were the sole survivors of such battles does not change the
analysis.
j. Birds
Similar birds are featured in each work, but they are not featured in the same way. The
Rook sees a rook who assists him in his mission in Eerie 83 and Eerie 84. In another episode,

27

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 28 of 32 PagelD 6622

The Rook puts on a pair of rook wings and flies besides die bird into battle. The image of the
Rook bird, a kind of crow, is found on his belt buckle, but is not otherwise prominently featured.
The rook chess piece is much more prominently featured. Roland encounters a raven named
Zoltan in The Gunslinger, and as young boy, had a hawk that he sacrifices to win combat with
his trainer. That a bird resembling a crow or hawk is featured on many of The Dark Tower novel
covers is of no import.
k. Generalities
Plaintiff correctly points out that both Roland and The Rook are brave, excellent
marksman, bom leaders, determined, engage in hand to hand combat and fight monsters.
However, these characteristics are scenes a faire of action adventure heroes.
1. Total look andfeel
The Eleventh Circuit has recognized that lists of similarities and dissimilarities between
works are inherently subjective and unreliable. Leigh, 212 F.3d at 1215. See also Singleton v.
Dean, 611 Fed. App’x. 671 (11th Cir. 2015)(“lists of similarities between two works are
inherently subjective and unreliable, particularly where the list contains random similarities, as
many such similarities can be found in very dissimilar works”) (citing Beal, 20 F.3d at 460).
Perhaps in response to this concern, some courts, including the Second Circuit, examine the total
concept and feel of the characters at issue. Warner Bros. Inc., 720 F.2d 231, 241 (citations
omitted). See also Sheldon Abend Revocable Trust v. Spielberg, 748 F.Supp.2d 200, 208
(S.D.N.Y. 2010) (When analyzing two characters for similarities, courts examine the “‘totality of
[the characters’] attributes and traits as well as to the extent to which the defendants’ characters
capture the ‘total concept and feel’ of figures in [plaintiffs work].”), (citations omitted).

28

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 29 of 32 PagelD 6623

This Court has compared the totality of the works at issue. The Rook is a light, at times
comical, campy science fiction comic. The Rook character is a hero that reflects that lightness.
He is a mile wide and an inch deep. Roland is completely different. He is disturbed, introspective
and at times, murderous. The Dark Tower, through Roland, explores some very dark themes.
Roland is obsessed by his quest to the Dark Tower. The Rook rescues his great-great
grandfather, who becomes his sidekick along with Manners. Roland has no living relatives. The
group that Roland travels with shows the veiy different tone of the Dark Tower novels. He
travels mostly with a heroin addict, an amputee with bipolar disorder and a 12-year-old boy.
Roland has the power to hypnotize and enter the conscious of others. Restin has a time machine,
but no super powers.
To the extent similarities that exist between Roland and Restin, they are similarities
general ideas and scenes a faire. Beal, 20 F.2d at 464.20 See Hogan v. DC Comics, 48 F.Supp.2d
298 (S.D.N.Y. 1999) (holding no substantial similarity of the characters, despite them both being
young, male, half-vampire characters named Nicholas Gant with similar appearances, both of
whom had flashbacks and killed others); Cabell v. Sony Pictures Entm’t Inc., 714 F. Supp.2d
452, 454 (S.D.N.Y. 2010) (no infringement where the main characters who were both militarytrained hair stylistics who fought crime and used hairdryers as weapons).
Plaintiff could still prevail on a claim for infringement if the way in which the works at
issue here express the unoriginal ideas is substantially similar or the unoriginal elements “have
20 As mentioned supra, characters have been afforded copyright protection separate and apart from
the work in which they appear when the character has “developed a constant set of traits that
distinguish [it] from other fictional characters.” Toho Co., Ltd. v. William Morrow and Co., Inc.,
33 F.Supp.2d 1206, 1216 (C.D. Cal. 1998Xaffording Godzilla standalone copyright protection).
This Court reaches no decision in terms of whether The Rook is ultimately sufficiently
delineated to warrant standalone copyright protection. Even if this Court were to find the
character sufficiently delineated for stand-alone protection, the characters and works at issue
here are not substantially similar in original/protected expression.
29

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 30 of 32 PagelD 6624

been combined in an original way.” Hogan, 48 F.Supp.2d at 311 (citing Walker, 784 F.2d at 50).
See Feist, 499 U.S. at 362 (Even a work that is entirely a compilation of unprotectible elements
may be copyrightable under certain circumstances). For all the reasons discussed herein, that is
not the case here.

The combination of non-unique elements in each character is not

substantially similar.
VIII. Access
The Court need not reach the question as to whether Defendant King22 had access to The
Rook. Resounding evidence of access does not dispense of the necessity of finding substantial
similarity. Beal, 20 F.3d 460. The proposition that overwhelming proof of access can substitute
for the requisite degree of substantial similarity is often labeled the “Inverse Ratio Rule.” 4
Nimmer on Copyright §13.03[D] (2018). However, the inverse ratio rule is not the law of the
Eleventh Circuit. Dream Custom Homes, Inc. v. Modern Day Constr., 476 Fed. App’x. 190,191
(11th Cir. 2012).
IX.

Graphic Novels and Movie

For all the reasons set forth herein, Marvel’s graphic novels and The Dark Tower movie are
not substantially similar to The Rook.23
X

Plaintiff’s Expert Witnesses Fail to Raise a Genuine Issue of Material Fact
Plaintiff’s experts fail to raise a genuine issue of material fact on the issue of substantially

similarity. Plaintiff argues that one of his experts, Tracy Buchanan demonstrates the substantial
21 Another example is the protagonist Rip Hunter from the Rip Hunter Time Master comic that
ran in the 1950s and 1960s. Rip was an inventor/time traveler, used a machine of his own
making and was a crack shot.
/

22 Or other defendants.
23 The images at issue only have broad, stock elements as similarities.
30

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 31 of 32 PagelD 6625

similarities of the characters because he purportedly conducted research into die response of “lay
audience.” (Doc. 120, pg. 14). Plaintiffs arguments are misguided. See Warner Bros. Inc.,720
F.2d at 245 (“When a trial judge has correctly ruled that two works are not substantially similar
as a matter of law, that conclusion is not to be altered by the availability of survey evidence
indicating that some people applying some standard of their own were reminded by one work of
the other-”)
While the Court has real doubts as to whether Tracy Buchanan’s expert report is
ultimately admissible at trial, as it summarizes Internet commentators remarking on the
similarities of Roland and The Rook, the characteristics the commentators identify as common
between the two protagonists are nothing more than scenes a faire. Moreover, legitimately
reminding someone of a copyrighted character is not the same as infringement. See Warner
Bros., 720 F.2d at 242 (“Stirring one’s memory of a copyrighted character is not the same as
appearing to be substantially similar to that character, and only the latter is infringement”).
Plaintiffs other expert, Richard Ardnt has failed to show substantial similarity of the
protected elements of each work. See Corwin v. Walt Disney Co., 475 F.3d 1239 (11th Cir. 2007)
(holding that the District Court properly excluded expert reports that focused on concept and
ideas of the works at issue rather than on the expression of those concepts and ideas) (emphasis
in original).24
XI.

CONCLUSION

The similarities between The Rook and Roland concern only non-copyrightable elements.

24 Plaintiffs former expert Jeffrey Rovin has a conflict of interest in this matter. He offered an
opinion prior to learning of that conflict and will not testify at trial. This Court, thus, has not
considered his opinion in this matter. See Macuba v. Deboer, 193 F.3d 1316, 1322 (11th
Cir. 1999)(“inadmissible hearsay ‘cannot be considered on a motion for summary judgment”).
31

Case 3:17-cv-00348-HES-MCR Document 130 Filed 03/01/19 Page 32 of 32 PagelD 6626

The protected elements of The Rook and Roland are dissimilar, even when viewed in die light
most favorable to Plaintiff. No reasonable jury, properly instructed, could find the works
substantially similar.
ACCORDINGLY, it is ORDERED:
1. Defendants’ Motion for Summary Judgment (Doc. 115) is GRANTED;
2. The Clerk is directed to terminate all pending motions, enter Judgment in favor of
Defendants and close this case.
DONE AND ORDERED at Jacksonville, Florida, this^T'day of February 2019.
HLKSINGER
ATES DISTRICT JUDGE
Copies to:
Robby T. Cook, Esq.
Robert R. Fredeking, Esq.
Vincent Cox, Esq.
Louis P. Petrich, Esq.
Raymond F. Treadwell, Esq.
Sanford L. Bohrer, Esq.
Scott D. Ponce, Esq.
Michael Manuel Gropper, Esq.

32

